                                                                             Report No. DODIG-2014-121



              I nspec tor Ge ne ral
                                                U.S. Department of Defense

              SEPTEMBER 30, 2014




                     Military Housing Inspections – Japan




I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E
    I N T E G R I T Y  E F F I C I E N C Y  A C C O U N TA B I L I T Y  E X C E L L E N C E




                                         Mission
       Our mission is to provide independent, relevant, and timely oversight
       of the Department of Defense that supports the warfighter; promotes
       accountability, integrity, and efficiency; advises the Secretary of
                  Defense and Congress; and informs the public.



                                          Vision
       Our vision is to be a model oversight organization in the Federal
       Government by leading change, speaking truth, and promoting
       excellence—a diverse organization, working together as one
                professional team, recognized as leaders in our field.




                                     Fraud, Waste, & Abuse

                                     HOTLINE
                                     Department of Defense
                                     d o d i g. m i l / h o t l i n e




For more information about whistleblower protection, please see the inside back cover.
                               Results in Brief
                               Military Housing Inspections – Japan



September 30, 2014                               Findings (cont’d)

Objective                                        Our overall findings for Japan installations were:

Our objective was to inspect DoD military           •	 There was inadequate resources and diligence to inspect,
housing in Japan for compliance with DoD               maintain, and repair housing facilities.
and Federal environmental health and safety
                                                    •	 Installation personnel did not ensure that fire protection
policies and standards. Those policies and
                                                       systems were properly installed, periodically inspected,
standards include the Unified Facilities
                                                       and maintained.
Criteria (UFC), National Fire Protection
Association (NFPA) codes and standards,             •	 Installation personnel did not ensure that electrical
National    Electrical Code    (NEC),   and            systems were properly installed, periodically inspected,
U.S.  Environmental Protection Agency (EPA)            and maintained.
standards.
                                                    •	 Installation personnel did not follow environmental
                                                       regulations or best practices to ensure the health and safety
Findings                                               of occupants, specifically with regard to mold and radon.
The majority of deficiencies (violations of
                                                    •	 Housing management systems were not fully implemented
code) identified during our inspection
                                                       and procedures were not always followed by installation
were attributed to insufficient inspection,
                                                       personnel.
maintenance, and repair of housing facilities.
A total of 1,057 deficiencies were identified
that could affect the health, safety, and        Recommendations
well‑being of warfighters and their families:    We recommend that the respective Military Departments, as
542 were fire protection systems, 420 were       applicable:
electrical systems, 87 were environmental
                                                    •	 Conduct an effective root cause analysis and corrective
health and safety, and 8 were housing
                                                       action for all 1,057 deficiencies in this report.
management. Of the total deficiencies, we
identified 145 critical deficiencies requiring      •	 Ensure that these deficiencies do not exist in other
immediate action in Notices of Concern                 housing units.
(NOCs) to U.S. Pacific Command (PACOM) and
U.S. Forces Japan (USFJ).  Of note, based           •	 Ensure the inspection, maintenance, and repair program is in
on our radiation measurements, the                     compliance with applicable codes and standards.
estimated individual annual doses at each
                                                    •	 Ensure that sufficient, qualified resources are available
USFJ installation tested were very low.  At
                                                       and assigned to inspect and verify that all housing
these levels, there are no demonstrable
                                                       buildings and units are in compliance with requirements.
radiation–induced health effects.


Visit us at www.dodig.mil


                                                                         DODIG-2014-121 (Project No. D2013-DT0TAD-0003) │ i
                                       Results in Brief
                                       Military Housing Inspections – Japan



  Recommendations (cont’d)

      •	 Ensure that housing management systems and             are required from the service components ensuring
         processes are fully implemented and followed for all   that they will coordinated with the base commands to
         installations.                                         address the NOC deficiencies.

  We recommend that the Under Secretary of Defense for          OUSD (AT&L) disagreed with our recommendation that
  Acquisition, Technology, and Logistics (OUSD  (AT&L))         they provide policy and guidance for the control and
  include guidance, per EPA standards to ensure the             remediation of mold and radon for accompanied and
  health of the warfighter, for both accompanied                unaccompanied housing for the warfighter and their
  and unaccompanied housing within the Overseas                 families. Therefore we strongly request that OUSD
  Environmental Baseline Guidance Document (OEBGD) for:         (AT&L) reconsider their position and provide additional
      •	 Control and remediation of mold.                       comments.  See the Management Comments section
                                                                for full text of the responses to the draft report.
      •	 Radon evaluation and mitigation.


  Management Comments and
  Our Response
  The PACOM, USFJ, Department of the Army, Department
  of the Navy, and the Department of the Air Force provided
  comments agreeing with all recommendations. These
  comments were fully responsive and we do not require
  additional comments with the exception of Finding A
  where individual base commands took exceptions to
  key deficiencies identified in the Notice of Concerns
  (See Tables F1, F2, and F3).        Additional comments




ii │ DODIG-2014-121 (Project No. D2013-DT0TAD-0003)
Recommendations Table
                                         No Additional Comments       Recommendations
             Management                         Required              Requiring Comment

OUSD (AT&L)*                                                      D.2.a and D.2.b

PACOM and USFJ                           A, B, C, D.1, and E

Military Departments*                    B, C, D.1, and E         A

*Please provide comments by October 31, 2014




                                                               DODIG-2014-121 (Project No. D2013-DT0TAD-0003) │ iii
                                            INSPECTOR GENERAL
                                            DEPARTMENT OF DEFENSE
                                            4800 MARK CENTER DRIVE
                                         ALEXANDRIA, VIRGINIA 22350-1500


                                                                                     September 30, 2014

           MEMORANDUM FOR SECRETARIES OF THE MILITARY DEPARTMENTS
                          UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                            TECHNOLOGY AND LOGISTICS
                          COMMANDER, UNITED STATES PACIFIC COMMAND
                          COMMANDER, UNITED STATES FORCES JAPAN

           SUBJECT: Military Housing Inspections – Japan (Report No. DODIG-2014-121)

           The DoD Office of Inspector General (DoD OIG) conducted the subject inspections of military
           housing facilities in Japan for compliance with applicable DoD and Federal policies and
           standards. The areas of inspection were electrical, fire protection systems, and environmental
           health and safety. The environmental inspections focused on radiation, radon, mold, pest
           infestation, water quality, lead-based paint, and asbestos. We inspected approximately
           2  percent of housing at 15  military installations in Japan and identified 1,057 total
           deficiencies (violations of code).

           We provided our findings/deficiencies in a draft of this report to U.S. Pacific Command
           (PACOM), U.S. Forces Japan (USFJ), and the Service components. While PACOM and USFJ and
           the Services provided full concurrence, certain base commands had non-concurred with
           deficiencies identified in our Notices of Concern issued in real time during the inspection.
           We request PACOM, USFJ, and the Services work with those base commands and provide a
           response back to this office.

           The Acting Deputy Under Secretary of Defense for Installation and Environment disagreed
           with our recommendation to issue policy for both control and remediation of mold and
           radon. Based on our inspection, the significant presence of mold and DoD’s current ad hoc
           approach to radon mitigation places unnecessary risk on the warfighter and their dependents.
           The OIG DoD firmly believes that serious health hazards such as these need to be addressed
           at the DoD level. Therefore, we request further comments from the Under Secretary
           of Defense for Acquisition, Technology and Logistics on our recommendations as they
           relate to radon and mold by October 31, 2014.

           DoD Directive 7650.3 requires that recommendations be resolved promptly. If possible,
           send a .pdf file containing your comments to Christopher.Failla@dodig.mil. Copies of your
           comments must have the actual signature of the authorizing official for your organization.
           We are unable to accept the /Signed/ symbol in place of the actual signature. If you
           arrange to send classified comments electronically, you must send them over the SECRET
           Internet Protocol Router Network (SIPRNET).



iv │ DODIG-2014-121
I wish to thank Deputy Commander, U.S. Pacific Command, LTG Tony Crutchfield,
and the Commander, U.S Forces Japan, Lt Gen Sam Angelella, and their staffs for the
professionalism, support, and courtesies extended to our inspection team. The DoD OIG
is proud and humbled to have met many warfighter families stationed throughout Japan
during the course of this inspection.

Please direct questions to




	                                              Randolph R. Stone
	                                              Deputy Inspector General
	                                               Policy and Oversight

cc:
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Army Inspector General
Naval Inspector General
Auditor General, Department of the Army




                                                                                DODIG-2014-121 │ v
                  Contents
                  Introduction
                  Objective _________________________________________________________________________________________1
                  Background ______________________________________________________________________________________1
                  	   Inspection Process __________________________________________________________________________1
                  	   Relevant Inspection Policy _________________________________________________________________4
                  	   Inspection Criteria___________________________________________________________________________5
                  	   Categorization of Deficiencies______________________________________________________________6

                  Installation Inspections__________________________________________________________8
                  Naval Air Facility Atsugi_________________________________________________________________________8
                  Camp Zama_____________________________________________________________________________________ 10
                  Commander Fleet Activities Yokosuka _______________________________________________________ 12
                  Misawa Air Base________________________________________________________________________________ 13
                  Marine Corps Air Station, Iwakuni____________________________________________________________ 14
                  Okinawa Installations__________________________________________________________________________ 16
                  	   Kadena Air Base___________________________________________________________________________ 17
                  	   Marine Corps Base Camp Butler and Marine Corps Air Station Futenma_____________ 18
                  	   U.S. Army Garrison Okinawa (Torii Station)_____________________________________________ 21

                  Overall Findings and Recommendations__________________________ 22
                  Finding A_ ________________________________________________________________________________ 23
                  Recommendations, Management Comments, and Our Response _________________________ 23

                  Finding B         ________________________________________________________________________________ 25
                  Recommendations, Management Comments, and Our Response__________________________ 26

                  Finding C__________________________________________________________________________________ 27
                  Recommendations, Management Comments, and Our Response _________________________ 28

                  Finding D ________________________________________________________________________________ 29
                  Recommendations, Management Comments, and Our Response__________________________ 30




vi │ DODIG-2014-121
Finding E__________________________________________________________________________________ 33
Recommendations, Management Comments, and Our Response__________________________ 34

Appendixes
Appendix A. Scope and Methodology________________________________________________________ 35
Appendix B. Radon Survey Results___________________________________________________________ 37
Appendix C. Radiation Survey Results_______________________________________________________ 41
Appendix D. Inspection Criteria List_________________________________________________________ 45
Appendix E. Sample Deficiency Form________________________________________________________ 49
Appendix F. Notices of Concerns and Responses_ __________________________________________ 50
	   NOC 1: NAF Atsugi, Camp Zama, CFA Yokosuka, and Misawa Air Base
       (November 8, 2013) __________________________________________________________________ 53
	      DoD OIG NOC 1, November 8, 2013__________________________________________________ 53
	   NOC 2: Kadena Air Base, Camp Lester, Camp Foster, MCAS Futenma, Camp Kinser,
       Camp Courtney, Camp McTureous, Camp Hansen, and Camp Schwab
       (December 19, 2013) ________________________________________________________________ 55
	      DoD OIG NOC 2, December 19, 2013________________________________________________ 55
	   NOC 3: MCAS Iwakuni (March 26, 2014)________________________________________________ 58
	      DoD OIG NOC 3, March 26, 2014 ____________________________________________________ 58
Appendix G. Deficiencies______________________________________________________________________ 61

Management Comments_____________________________________________________ 62
Department of the Army Response___________________________________________________________ 62
Department of the Navy Response_ __________________________________________________________ 63
Department of the Air Force Response_______________________________________________________ 65
Office of the Under Secretary of Defense for Acquisition, Technology,
    and Logistics Response_ __________________________________________________________________ 66
United States Pacific Command Response___________________________________________________ 67
United States Forces Japan Response________________________________________________________ 68

Acronyms and Abbreviations______________________________________________ 69




                                                                                                DODIG-2014-121 │ vii
                                                                                                      Introduction




Introduction
Objective
Our objective was to inspect DoD military housing in Japan for compliance with DoD
and Federal environmental health and safety policies and standards. Those policies
and standards include the Unified Facilities Criteria (UFC), National Fire Protection
Association (NFPA) codes and standards, National Electrical Code (NEC), and
Environmental Protection Agency (EPA) standards.


Background
In support of the DoD OIG’s mission to ensure the health and safety of warfighters
and their families, we announced the inspection of military housing in Asia on
July  18,  2013.  Approximately 38,000 military personnel and 43,000 dependents
are stationed at installations throughout Japan.  Inspections were conducted in
Japan because of the strategic realignment of installations in the Pacific.  Japan
installations are also exposed to a wide range of environmental conditions from
heavy snow, tropical storms, and seismic activities.  


Inspection Process
We inspected the DoD military housing facilities in Japan for compliance with
applicable DoD and Federal environmental health and safety policies and standards.
The areas of inspection were electrical, fire protection systems, and environmental
health and safety.       The environmental health and safety inspection focused on
compliance to mold, water quality, lead-based paint, asbestos, pest infestation,
radon, and radiation standards. We inspected accompanied units (family housing)
and unaccompanied units (barracks and dormitories), mechanical rooms, and
common        areas;   conducted     personnel    interviews;        inspected    housing   service
order request and public work records; and examined program management plans
and survey results.  See Appendix A for additional scope and methodology.

We    conducted        radon   and    radiation    surveys      at     both      accompanied   and
unaccompanied housing including playgrounds, ball fields, and lodges.                          See
Appendixes B and C for the inspection processes for the radon and radiation
surveys.  We inspected water quality testing results (monthly, quarterly, and
annually) at each installation and inspected on‑site water treatment plants, if
applicable.     During the on-site inspection, the residents were interviewed for any
concerns regarding drinking water quality.  For lead‑based paint, we inspected the



                                                                                                  DODIG-2014-121 │ 1
Introduction



                 lead hazard management programs to see if the installations identified, controlled
                 or eliminated lead‑based paint hazards through interim controls or abatement.
                 For asbestos, we inspected the asbestos management programs to determine
                 whether each installation managed friable and non‑friable asbestos-containing
                 materials (ACM) in accordance with environmental requirements.                                            In addition, we
                 visually inspected for lead-based paint and ACM in buildings followed by ensuring
                 their inclusion in the lead-based paint or asbestos inventories.

                 The inspections were conducted at the following installations (also shown in Figure 1):

                               •	 Mainland Japan

                                            {{   Naval Air Facility (NAF) Atsugi

                                            {{   Camp Zama

                                            {{   Commander Fleet Activities (CFA) Yokosuka

                                            {{   Misawa Air Base

                                            {{   Marine Corps Air Station (MCAS) Iwakuni

                               •	 Okinawa

                                            {{   Kadena Air Base

                                            {{   Marine Corps Base (MCB) Camp Butler

                                                          •	 Camp Lester

                                                          •	 Camp Foster

                                                          •	 Camp Kinser

                                                          •	 Camp Courtney

                                                          •	 Camp McTureous

                                                          •	 Camp Hansen

                                                          •	 Camp Schwab

                                            {{   MCAS Futenma

                                            {{   U.S. Army Garrison (USAG) Okinawa (Torii Station)1




                 	1	
                       U.S Army Garrison Torii Station was officially renamed U.S. Army Garrison Okinawa on Mar 4, 2014.

2 │ DODIG-2014-121
                                                                                                                               Introduction



Between September 10, 2013 and March 7, 2014, we inspected an average of
two percent of housing units at each major installation in Japan.                                                We selected
buildings and units of a variety of size, type, and age; and considered complaints
received, work orders submitted, and onsite information gathered. We also
inspected common areas such as utility rooms, boiler rooms, laundry rooms,
barrack lounges, and common kitchen areas.




                                                      JAPAN

     LEGEND
         Army
         Navy
         Air Force
         Marine Corp

                                                                                               Misawa Air Base
                                                                                                   (Air Force)




                       Marine Corps Air Station Iwakuni
                                 (Marine Corps)

                                                                                          Camp Zama
                                                                                            (U.S. Army)

                                                                                          CFA Yokosuka
                                                                                           (U.S. Navy)
                                                                        Naval Air Facility Atsugi
                                                                                 (U.S. Navy)




                                   Okinawa
                                     Marine Corps                    U.S. Army             Air Force
                                     Camp Schwab      Camp Foster    U.S. Army Garrison    Kadena Air Base
                                     Camp Hansen      Camp Kinser     Okinawa
                                     Camp Courtney    MCAS Futenma
                                     Camp McTureous   Camp Lester




 Figure 1. Installations Inspected in Japan
 Source: DoD OIG




                                                                                                                           DODIG-2014-121 │ 3
Introduction



                 The inspection was performed by fire protection engineers, environmental
                 engineers, industrial hygienists, master electricians, radiation health physicists,
                 and quality assurance engineers.         Inspectors populated deficiency forms for each
                 deficiency identified.    Appendix D contains a full list of inspection criteria and
                 Appendix  E contains a sample deficiency form.              At the end of each inspection,
                 we briefed installation commands on the results and provided a draft copy of all
                 deficiencies identified on their installation.


                 Notices of Concern
                 We issued three Notices of Concern (NOCs) to U.S. Pacific Command (PACOM) and
                 U.S. Forces Japan (USFJ). The NOCs identified critical health and safety deficiencies
                 requiring immediate corrective action; the NOCs with responses are included in
                 Appendix F.


                 Relevant Inspection Policy
                 We inspected facilities for compliance with applicable U.S law, DoD policies,
                 Service requirements, and installation-specific standard operating procedures.
                 DoD policies include DoD Instruction (DoDI) 4165.63, “DoD Housing” and
                 DoD Manual (DoDM) 4165.63M, “DoD Housing Management,” which specify minimum
                 standards for configuration, privacy, condition, health, and safety of DoD housing.
                 DoDM 4165.63M states that DoD housing “shall be operated and maintained
                 to a standard that protects the facilities from deterioration and provides safe
                 and comfortable living places for Service members and their dependents.”               DoD
                 assigns responsibility to installation commanders to “ensure that the operation,
                 maintenance, and repair of DoD housing and major building components are being
                 performed to provide excellent facilities in the most cost-effective manner.” For host
                 nation‑funded installations, we referred to DoDD 4270.34, “Host Nation‑Funded
                 Construction Programs in the U.S.  Pacific Command Area of Responsibility,” which
                 requires that host nation-funded projects be designed and constructed to meet
                 U.S. military construction program criteria for personnel health and safety and
                 environmental protection.         Military construction outside of the United States is
                 also governed by Status of Forces Agreements, Host Nation Funded Construction
                 Agreements, and in some instances, Bilateral Infrastructure Agreements.

                 DoDI 4715.05, “Environmental Compliance at Installations Outside the United
                 States,”   establishes   policy    and   responsibilities    for   managing   environmental
                 compliance to protect human health and safety at DoD installations outside the
                 United States.     DoDI 4715.05 requires a comprehensive set of country‑specific




4 │ DODIG-2014-121
                                                                                              Introduction



substantive   provisions,    the   Final   Governing    Standards      (FGS)   to   protect
human health and the environment in foreign countries identified by the
Office of the Under Secretary of Defense for Acquisition, Technology, and
Logistics (OUSD (AT&L)). DoDI 4715.05 also references DoD 4715.05-G, “Overseas
Environmental Baseline Guidance Document (OEBGD),” to provide criteria and
management practices for environmental compliance at U.S. installations overseas.
The Japanese Environmental Governing Standards (JEGS) are the FGS for Japan.
The environmental inspections focused on compliance with the requirements and
policies established in JEGS and other applicable UFCs.


Inspection Criteria
Typically inspections are done to the latest standard and regulations to ensure
that safety concerns are identified in accordance with the most recent approach
to hazards.      A facility’s age could necessitate the use of an older edition code
or regulation.     The latest standards and regulations were the criteria for our
inspection so that each facility could be compared to the same baseline.  The following
sections provide further details on the criteria for our inspection.


DoD Unified Facilities Criteria
The DoD Unified Facilities Criteria (UFC) streamlines all technical criteria and
standards pertaining to the planning, designing, construction, and operation
and maintenance (O&M) of real property facilities. It applies to the Military
Departments, DoD Agencies, and DoD field activities. UFC standards used for this
inspection include UFC 4-711-01, “Family Housing,” UFC 3-600-01 Change 1, “Fire
Protection Engineering for Facilities,” UFC 3-520-01 Change 1, “Interior Electrical
Systems,” and UFC 3-560-01, “Electrical Safety – O&M.” In most cases, UFCs state
that if requirements in an NFPA or host nation agreements are more stringent
than requirements in a UFC, the more stringent requirement takes precedence.


National Fire Protection Association Standards
The NFPA is an internationally recognized organization that publishes 300  codes
and standards for minimizing the risks and effects of fire by establishing
criteria for building, designing, servicing, and installation in the United States
and other countries.      NFPA standards used in this inspection include NFPA 70,
“National Electrical Code,” which is the most widely used and accepted code for
electrical installations.  We also used NFPA 1, “Fire Code”, which establishes




                                                                                          DODIG-2014-121 │ 5
Introduction



                 requirements for fire safety and property protection in new and existing buildings
                 and NFPA 101, “Life Safety Code,” which establishes requirementsto protect
                 building occupants from fire, smoke, and toxic fumes.


                 Environmental Protection Agency Standards
                 We used EPA standards for the radon and radiation surveys. We compared radon
                 and radiation measurements taken during the inspection to EPA exposure limits.


                 Categorization of Deficiencies
                 During the housing inspections at 15 military installations in Japan, we
                 documented 1,057 deficiencies (violations of code) affecting the life, health,
                 and safety of warfighters and their families (see Appendix G).  Deficiencies
                 documented noncompliance with the UFC, NFPA, NEC, JEGS, environmental
                 standards, DoD policies and instructions, Armed Services policies, and internal
                 procedures and processes at each facility.      Deficiencies were classified into three
                 primary categories: fire protection, electrical, and environmental health and
                 safety.   We identified a fourth category, housing management, based on issues
                 observed during our inspection of the first four installations. Housing management
                 included an inspection of processes, databases, and the components responsible
                 for   overall   implementation   of   housing   policies.   Environmental   health   and
                 safety deficiencies were further delineated into the following subcategories:
                 mold, asbestos/lead/polychlorinated biphenyls (PCBs), radon, pest control, and
                 water quality.    Based on our radiation measurements, the estimated individual
                 annual doses at each USFJ installation were very low.         At these levels, there are
                 no demonstrable radiation‑induced health effects. The structural deficiencies
                 (environmental category) posed a significant health and safety hazard and were
                 issued in a NOC.  Figure 2 shows deficiencies in the three primary categories as
                 well as housing management.




6 │ DODIG-2014-121
                                                                      Introduction



Figure 2. Number of Deficiencies by Location and Evaluation Area




                                                                   DODIG-2014-121 │ 7
Installation Inspections




                 Installation Inspections
                 Naval Air Facility Atsugi
                 NAF Atsugi is located in the center of the Kanto Plain, on the eastern side of
                 central mainland Japan, and is approximately 22 miles southwest of Tokyo.                                                      The
                 climate at NAF Atsugi is similar to the east coast of the United States with four
                 seasons. The NAF Atsugi community includes 10,000 personnel, including U.S. Navy,
                 civilians, and family members. NAF Atsugi supports the combat readiness of
                 Commander, Fleet Air Forward, Commander, Carrier Air Wing, Helicopter Maritime
                 Strike Squadron 51, and 30 other tenant commands and units assigned to the
                 Western Pacific.              NAF Atsugi has more than 1,000 housing buildings, with over
                 2,000 total units. Morale Welfare and Recreation is responsible for housing
                 management.  Public Works Department within Naval Facilities Engineering
                 Command (NAVFAC) is responsible for repair and maintenance of installation
                 facilities. See Table 1 for NAF Atsugi’s deficiencies.

                 Table 1. NAF Atsugi Deficiency Categorization
                                                                                              Environmental
                                                                          Asbestos/Lead/PCB
                                    Fire Protection


                                                      Electrical




                                                                                                       Pest Control


                                                                                                                      Structural




                                                                                                                                              Total
                                                                                               Radon




                                                                                                                                   Water
                                                                   Mold




                     NAF Atsugi      25               26            7         0                 2         1             0           0         61


                 From September 16 through September 22, 2013, we inspected 31 units in
                 20 buildings, including multi-unit, barracks, towers, and single family homes.
                 On November  8,  2013, we issued a NOC that detailed 17 deficiencies requiring
                 immediate action (out of the 60 deficiencies identified at NAF Atsugi).                                                        Fire
                 protection deficiencies included missing smoke alarms in sleeping areas and a lack of
                 automatic fire sprinkler system installed in military housing. Electrical deficiencies
                 included lighting fixtures hanging by energized wires and missing electrical panel
                 covers, which exposed energized conductors (see Figure 3).                                                  This increases the
                 risk of electrocution or fire. We found generator wires in a junction box without
                 a bushing installed to protect against sharp edges and abrasions.                                                         Abrasion




8 │ DODIG-2014-121
                                                                                              Installation Inspections



of insulation could result in an electrical short to the junction box, causing a
catastrophic failure to the emergency back‑up power system.                        Also, there were
numerous deficiencies due to excessive mold build up, which could result in
hazardous health conditions.

                                                    In   addition       to    those     deficiencies
                                                    identified in the NOC, we also noted
                                                    installation‑wide deficiencies.  Electrical
                                                    deficiencies included missing Ground
                                                    Fault Circuit Interrupter (GFCI) for
                                                    countertops, bathrooms, and exterior
                                                    outlets which results in an electrocution
                                                    hazard.        Environmental        deficiencies
                                                    included a building with radon level
                                                    readings      above       the     recommended
 Figure 3. Live wires hanging out of wall without
 proper enclosure protecting from accidental        EPA limit.         In housing mangement,
 contact (Deficiency No. ATS-EL-130917-018)         we found a lack of communication
 Source: DoD OIG
                                                    between Public Works, Housing Office,
                                                    and the Command.                There were no
formal housing management roles and responsibilities nor guidance on how to
allocate resources; therefore, proper root cause analysis and corrective action
                                                    for the remediation of issues was
                                                    not being performed. For example,
                                                    none of the work orders specified
                                                    an adequate inspection or evaluation
                                                    process      to    determine       root     cause
                                                    of moisture intrusion (leaky roofs,
                                                    pipes,     etc.)    in    single‑family      units
                                                    with a history of heavy condensation,
                                                    musty      odors,        and     mold     blooms
                                                    (see Figure  4). These issues resulted
 Figure 4. Left: Mold blooms inside barracks
                                                    in a lack of accountability to provide
 (Deficiency No. ATS-EN-130917-009A) Right:
 Warped paint from moisture/condensation inside     adequate housing to the warfighters
 single family housing unit
 (Deficiency No. ATS-EN-130917-008A)                and their  families.
 Source: DoD OIG




                                                                                                      DODIG-2014-121 │ 9
Installation Inspections



                 Camp Zama
                 Camp Zama is located on the eastern side of central mainland Japan in the cities
                 of Zama and Sagamihara in Kanagawa Prefecture, and is approximately 25 miles
                 southwest of Tokyo. The climate at Camp Zama is similar to the east coast of the
                 United States with four seasons.                          Camp Zama is the headquarters of United
                 States Army Japan (USARJ), which serves as the Army Component of USFJ. Camp
                 Zama is also home to the U.S. Army Japan/I Corps (FWD), U.S. Garrison Japan
                 (USAG-J), the 441st Military Intelligence Battalion, the 78th Signal Battalion,
                 and other units.                   Camp Zama’s installation cluster includes Sagamihara Family
                 Housing Area and Sagami General Depot. Camp Zama has more than 300 housing
                 buildings, with more than 1,400 total units.                                   Directorate of Public Works, USAG-J
                 at Camp Zama is responsible for all the building’s operations, inspection, testing,
                 and maintenance. See Table 2 for Camp Zama’s deficiencies.

                 Table 2. Camp Zama Deficiency Categorization
                                                                                                Environmental
                                                                            Asbestos/Lead/PCB
                                  Fire Protection


                                                       Electrical




                                                                                                         Pest Control


                                                                                                                          Structural




                                                                                                                                               Total
                                                                                                 Radon




                                                                                                                                       Water
                                                                    Mold




                      Camp Zama    17                   18           4          0                 1         0               0           0      40


                 From September 23 through September 24, 2013, we inspected 29 units in
                 13 buildings of various types, including single family dwelling, multi-family dwelling,
                 unaccompanied barracks, and enlisted/officers’ quarters.                                               On November 8, 2013,
                 we issued a NOC that detailed 10 deficiencies requiring immediate action (out of the
                 40 deficiencies identified at Camp Zama). The most widely identified deficiencies
                 included missing smoke alarms and smoke detectors in sleeping areas.  We
                 identified instances of low hanging electrical service drops that were installed at
                 only 8 feet 7 inches off the ground rather than the 12-foot requirement, posing a
                 safety hazard to the occupants (see Figure 5).




10 │ DODIG-2014-121
                                                                                                 Installation Inspections



In   addition     to   those     deficiencies       identified     in    the   NOC,    we   also    noted
installation‑wide      deficiencies.        Fire    protection       deficiencies     included     missing
automatic sprinkler systems in required locations.  Electrical deficiencies included
missing GFCIs for bathrooms, laundry rooms, and exterior outlets.  Environmental
deficiencies included Camp Zama’s failure to comply with installation procedures
for mold investigation and clean-up of a family housing unit that we inspected.
According to Camp Zama’s procedures, although air sampling for mold is not part
of routine inspections, it may be necessary when the presence of mold is suspected
(for example musty odors) but not visible.




 Figure 5. Example of low-hanging electrical service drops at housing units
 (Deficiency No. ZAM-EL-130923-012)
 Source: DoD OIG




                                                                                                         DODIG-2014-121 │ 11
Installation Inspections



                 Commander Fleet Activities Yokosuka
                 CFA Yokosuka is on the eastern side of central mainland Japan, 43 miles south of
                 Tokyo. The climate at CFA Yokosuka is similar to the east coast of the United States
                 with four seasons.                         The installation is the home of the U.S. Naval Forces Japan,
                 U.S. 7   th
                               Fleet and is the largest overseas U.S. naval installation in the world.  It
                 is considered to be one of the most strategic installations in the U.S. military.
                 CFA Yokosuka has more than 3,400 housing buildings, comprising of over
                 4,000 total units.  Housing management at CFA Yokosuka is responsible for
                 operations, inspection, testing, and maintenance of all buildings.                                                                See Table 3 for
                 CFA Yokosuka’s deficiencies.

                 Table 3. CFA Yokosuka Deficiency Categorization
                                                                                                       Environmental
                                                                                   Asbestos/Lead/PCB
                                          Fire Protection


                                                              Electrical




                                                                                                                     Pest Control


                                                                                                                                      Structural




                                                                                                                                                                 Total
                                                                                                        Radon




                                                                                                                                                        Water
                                                                           Mold




                      CFA Yokosuka         36                  35           0          2                 3              0               0                0       76


                 From September 25 through September 27, 2013, we inspected 48 units
                 in 22 buildings of various types, including two-level townhomes to four- and
                 nine-story tower buildings.  On November 8, 2013, we issued a NOC that
                 detailed 12 deficiencies requiring immediate action (out of the 74 deficiencies
                 identified at CFA Yokosuka).  Specifically, two major deficiencies were identified
                 for CFA Yokosuka: missing smoke alarms or detectors in sleeping areas and a fire
                 pump pressure gauge with exposed electrical wiring (broken electrical conduit),
                 which could lead to equipment failure or electrocution.

                 In      addition    to               those         deficiencies   identified                   in   the            NOC,           we     also   noted
                 installation‑wide deficiencies.  For example, fire protection deficiencies included
                 missing exit stairway identification signs and fire extinguishers that had not been
                 inspected monthly as required.  Electrical deficiencies included missing GFCI
                 for vending machines, laundry rooms, and kitchen countertops, and improper
                 workmanship (see Figure 6).  We also identified exposed energized wiring due
                 to a missing electrical service panel breaker blank or broken electrical cover.
                 Environmental deficiencies identified that a radon survey had not been conducted



12 │ DODIG-2014-121
                                                                                            Installation Inspections



for the Negishi Heights housing area, as required by the Navy Radon Assessment
and Mitigation Program.  In addition, radon screening on the Yokosuka main base
was not conducted in accordance with the Navy Radon Assessment and Mitigation
Program (NAVRAMP) for housing built after 1991. Through our independent radon
measurements, however, we found two buildings with readings in excess of EPA
recommended levels.




 Figure 6. GFCI improperly secured in electrical panel (Deficiency No. YOK-EL-130925-005)
 Source: DoD OIG




Misawa Air Base
Misawa Air Base is in the northern part of mainland Japan on the shores of
Lake Ogawara in the Aomori Prefecture and is approximately 400 miles north
of Tokyo.      Misawa Air Base experiences four seasons with heavy snowfalls in
the winter and spring, cool and foggy summers, and heavy rainfall in autumn.
Misawa Air Base is the home of the United States Air Force 35th Fighter Wing
Command.       The base has more than 2,000 housing buildings, comprising of over
3,000 total units.      The 35th Civil Engineer Squadron is responsible for operations,
maintenance, and repair of housing facilities on Misawa Air Base. See Table 4 for
Misawa Air Base’s deficiencies.


                                                                                                   DODIG-2014-121 │ 13
Installation Inspections



                 Table 4. Misawa Air Base Deficiency Categorization
                                                                                                 Environmental




                                                                           Asbestos/Lead/PCB
                                     Fire Protection


                                                       Electrical




                                                                                                          Pest Control


                                                                                                                         Structural




                                                                                                                                               Total
                                                                                                  Radon




                                                                                                                                      Water
                                                                    Mold
                      Misawa Air      24               34            0           6                 0         0             0           0       64
                         Base


                 From September 29 through October 1, 2013, we inspected 44 units in 19 buildings
                 of varying types, including two-level townhomes, four- and nine-story tower
                 buildings. On November 8, 2013, we issued a NOC that detailed 7 fire protection
                 deficiencies requiring immediate action (out of the 64 deficiencies identified at
                 Misawa Air base). NOC deficiencies were due to missing smoke alarms and smoke
                 detectors in sleeping areas.

                 In addition to those deficiencies identified in the NOC, we also noted installation‑wide
                 deficiencies.     Several of the fire protection deficiencies related to fire doors and
                 inadequate emergency signage.  Electrical deficiencies included a lack of GFCIs
                 and poor equipment conditions. As a result of lack of repair and maintenance,
                 we identified corrosion of a main switchgear electrical panel, a broken exhaust
                 fan in the laundry room, exposed live wire in bathroom lighting fixtures, and a
                 missing cover for the junction box in the mechanical room. We also identified that
                 Misawa Air Base had not maintained and updated its environmental management
                 plans and databases for asbestos, lead-based paint, and PCBs as required by JEGS.


                 Marine Corps Air Station, Iwakuni
                 MCAS Iwakuni is the only Marine Corps installation on mainland Japan, located
                 south in the Nishiki River delta at Iwakuni City and is approximately 600 miles
                 southwest of Tokyo.                         MCAS Iwakuni experiences mild winters with some
                 snow and warm and humid summers.                                          It is home to approximately half of the
                 1st Marine Aircraft Wing that is headquartered on Okinawa and elements
                 of the 3rd Force Service Support Group.                                       MCAS Iwakuni is also home to Marine
                 Aircraft Group 12, Marine Aviation Logistics Squadron 12, Marine Wing Support
                 Squadron 171, and Marine All Weather Fighter Attack Squadron 242.                                                            It has
                 more than 700 family housing buildings of different types including single family




14 │ DODIG-2014-121
                                                                                                                                                      Installation Inspections



housing, duplexes, fourplexes, row houses, and mid-rise buildings to support the
approximately 15,000 personnel, including U.S. military, dependents, and Japanese
nationals.      Major reconstruction efforts are in place, and 1,054 housing buildings
are scheduled to be completed by June 2017 to support the addition of more than
2,500 uniformed personnel and 2,000 dependents moving to MCAS Iwakuni starting
in the summer of 2014.                                The total base population will increase from 7,972 to
13,253 people by the end of the move. The family and bachelor housing division
under the facilities department is responsible for the operations, maintenance, and
repair of housing at MCAS Iwakuni. See Table 5 for MCAS Iwakuni’s deficiencies.

Table 5. MCAS Iwakuni Deficiency Categorization
                                                                                    Environmental




                                                                                                                                 Housing Management
                                                                Asbestos/Lead/PCB
                      Fire Protection


                                        Electrical




                                                                                             Pest Control


                                                                                                            Structural




                                                                                                                                                         Total
                                                                                     Radon




                                                                                                                         Water
                                                         Mold




       MCAS           103               50                2         1                 2         0             0           0          2                  160
      Iwakuni


From March 3 through March 7, 2014, we inspected 39  units in 20  buildings of
different types. On March  26,  2014, we issued a NOC that detailed 28  deficiencies
requiring immediate action (out of the 160 deficiencies found at MCAS Iwakuni). Fire
protection deficiencies included
missing smoke alarms and smoke
detectors in sleeping areas.                             We
identified      obstructed                  sprinkler
heads and a faulty fire pump
controller that caused the fire
sprinkler system to be inoperable
(see      Figure               7).          Electrical
deficiencies         included                        missing
electrical       bonding                       between
neutral, ground, and the main
electrical panel.                   This increases
                                                                   Figure 7. Fire pump controller electrical phase reversal
the     risk    of     fire,            equipment                  fault rendering the fire pump and the sprinkler system
                                                                   completely out of service
damage, and electrocution.                                         (Deficiency No. IWA-FP-140303-103)
                                                                   Source: DoD OIG




                                                                                                                                                                 DODIG-2014-121 │ 15
Installation Inspections



                 In        addition   to    those    deficiencies    identified    in   the    NOC,      we     also   noted
                 installation‑wide          deficiencies.      For   example,     several     of   the   fire    protection
                 deficiencies related to issues with fire doors and inadequate emergency signage.
                 As at other installations in Japan, we identified missing GFCIs in housing units.
                 We also identified environmental deficiencies such as a lack of radon screening in
                 accordance with the Navy Radon Assessment and Mitigation Program for housing
                 built after 1991.              With regards to housing management, we identified several
                 instances where work orders and service tickets were missing information such
                 as problem codes, housing unit numbers, and corrective action taken. Incomplete
                 and inaccurate information is not in compliance with MCAS Order 11010.2D, “MCAS
                 Iwakuni Real Property Facilities Maintenance Program,” and prevents analysis of
                 historical work order information for trends and lessons learned to improve housing
                 management programs.


                 Okinawa Installations
                 Okinawa Prefecture is the southernmost prefecture of Japan and is made up of
                 a chain of islands.             The climate in Okinawa is very humid with hot summers,
                 mild winters, and a typhoon season from June to November.                           The U.S. maintains
                 Army, Navy, Air Force, and Marine installations in Okinawa. Okinawa hosts about
                 two‑thirds (approximately 25,000) of American forces in Japan.  Okinawa has
                 more than 7,000 housing units of different types including single family housing,
                 duplexes, fourplexes, row houses, and tower buildings.  All military accompanied
                 housing on Okinawa is administered and managed by the U.S. Air Force.                                  The
                 Air Force 18         th
                                           Civil Engineer Group (CEG) has the primary responsibility for
                 maintenance and repair of family housing throughout Okinawa.                                    Air Force
                 18   th
                           CEG is also responsible for unaccompanied housing at Kadena Air Base. For
                 unaccompanied housing at Okinawa installations other than Kadena Air Base, each
                 of the respective Services are responsible for their own housing management.

                 From October 28, 2013 through November 22, 2013, we inspected the following
                 installations in Okinawa (also shown in Figure 8):

                               •	 Kadena Air Base
                               •	 MCB Camp Butler
                                           {{   Camp Lester
                                           {{   Camp Foster
                                           {{   Camp Kinser




16 │ DODIG-2014-121
                                                                            Installation Inspections



                      {{   Camp Courtney
                      {{   Camp McTureous
                      {{   Camp Hansen
                      {{   Camp Schwab
          •	 MCAS Futenma
          •	 USAG Okinawa (Torii Station)




 Figure 8. Installations Inspected in Okinawa
 Source: DoD OIG




Kadena Air Base
Kadena Air Base is located in the central portion of the island of Okinawa. The base
operates the largest U.S. installation in the Asia-Pacific region and is home to the
18th Wing. Kadena Air Base has approximately 3,000 housing units. See Table 6
for Kadena Air Base deficiencies.




                                                                                   DODIG-2014-121 │ 17
Installation Inspections



                 Table 6. Kadena Air Base Deficiency Categorization
                                                                                            Environmental




                                                                                                                                         Housing Management
                                                                        Asbestos/Lead/PCB
                                  Fire Protection


                                                    Electrical




                                                                                                     Pest Control


                                                                                                                    Structural




                                                                                                                                                              Total
                                                                                             Radon




                                                                                                                                 Water
                                                                 Mold
                      Kadena AB    58               68           11         1                 2         4             0           0          3                147


                 From October 28 through November 2, 2013, we inspected 81 units in 37 housing
                 buildings of various types, including multi-unit, barracks, towers, and single family
                 homes.  On December 19, 2013, we issued a NOC that detailed 24 deficiencies
                 requiring immediate action (out of the 146 deficiencies identified at Kadena
                 Air Base).  Specifically, we identified missing smoke alarms in sleeping areas.  In
                 addition, we identified hazardous electrical power service drops and broken light
                 fixtures in shower areas, which expose occupants to the risk of electrocution.
                 Environmental issues include significant mold issues in living quarters, which could
                 result in chronic health conditions. Through our independent radon measurements,
                 we found one housing building with two radon level readings in excess of EPA
                 recommended levels.                     Lastly, we identified housing management issues where
                 installation personnel did not conduct housing visits and inspections as required
                 by Air Force Instruction AFI 32‑6005, “Unaccompanied Housing Management.” The
                 purpose of the required inspections include checking for dormitory cleanliness,
                 identifying repair and maintenance needs, inspecting HVACs and other appliances,
                 and inspecting for environmental hazards such as mold and mildew.


                 Marine Corps Base Camp Butler and Marine Corps Air
                 Station Futenma
                 MCB Camp Smedley D. Butler and MCAS Futenma are a part of the Marine Corps
                 Installations Pacific (MCIPAC) in Okinawa. MCB Camp Butler is comprised of several
                 contiguous and non-contiguous installations including Camp Foster, Camp Kinser,
                 Camp Courtney, Camp McTureous, Camp Hansen, and Camp Schwab.  Although
                 MCAS Futenma is not under the command of MCB Camp Butler, it has many
                 shared resources.  MCIPAC is responsible for ensuring that installations provide
                 a number of services like training areas, work facilities, utilities, and housing.




18 │ DODIG-2014-121
                                                                                                                                             Installation Inspections



From October 31 through November 30, 2013, we inspected 416 units in
87 housing buildings of various types including multi-unit, barracks, towers,
and single family homes. On December 19, 2013, we issued a NOC that detailed
47 deficiencies requiring immediate action (out of the 477 deficiencies identified
at installations throughout MCB Camp Butler). See Table 7 for MCB Camp Butler’s
and MCAS Futenma’s deficiencies.

NOC deficiencies found at MCB Camp Butler and MCAS Futenma included
missing smoke alarms in sleeping areas, which could result in evacuation delay,
personnel injury, or death.                     Also there were hazardous electrical power service
drops and broken light fixtures in shower areas, which expose occupants to the risk
of electrocution; and there was significant mold growth in living quarters due to
inadequate mitigation of condensation and moisture intrusion, which could result
in chronic health conditions and tenant illness.

Table 7. Camp Butler Deficiency Categorization
                                                                           Environmental




                                                                                                                        Housing Management
                                                       Asbestos/Lead/PCB
                 Fire Protection


                                   Electrical




                                                                                    Pest Control


                                                                                                   Structural




                                                                                                                                                Total
                                                                            Radon




                                                                                                                Water
                                                Mold




    MCAS          10               15            2         0                 1         0             1           0          0                   29
   Futenma
 Camp Lester      18               10            1         0                 0         0             0           0          1                   30
 Camp Foster      77               68            9         1                 0         0             1           0          2                  158
 Camp Kinser      48               23            4         0                 0         0             0           0          0                   75
    Camp          16               10            4         0                 1         0             0           0          0                   31
   Courtney
    Camp             5               2           2         0                 0         0             0           0          0                    9
  McTureous
 Camp Hansen      64               41            6         0                 0         0             0           1          0                  112
    Camp          19               12            4         0                 0         0             0           0          0                   35
   Schwab




                                                                                                                                                        DODIG-2014-121 │ 19
Installation Inspections


                                                                    NOC       deficiencies      specific     to     some
                                                                    installations were noted.        At Camp Schwab,
                                                                    we identified a hazardous electrical front
                                                                    panel cover, which could increase the risk of
                                                                    electrocution. We also identified ungrounded
                                                                    single family houses at Camp Foster (see
                                                                    Figure 9).      At MCAS Futenma, we identified
                                                                    a critical deficiency due to a building with
                                                                    significant structural damage (deteriorated
                                                                    concrete exposing the steel reinforcements
                                                                    and    rapidly    corroding     walkways),      which
                                                                    presented a danger to building occupants
                                                                    of    falling   concrete    debris     and    possible
                                                                    structural collapse. We also identified areas
                      Figure 9. No earth grounding electrode        where concrete was separating from the
                      conductor in service panel for single
                      family house                                  underside of a walkway on the third  floor
                      (Deficiency No. FOS-EL-131104-057)            as shown in Figure  10.                The walkway
                      Source: DoD OIG
                                                                    had     inadequate       structural    reinforcement
                 and no means of protection from debris and collapse.  At Camp Courtney, we
                 identified a damaged exterior railing, which created a falling hazard for the
                 occupants.  Also, our independent radon measurements identified two  buildings
                 with measurements in excess of EPA recommended levels; one at Camp Courtney,
                 and one at MCAS Futenma.




                      Figure 10. A walkway at MCAS Futenma (Deficiency No. FUT-EN-131107-003)
                      Source: DoD OIG


20 │ DODIG-2014-121
                                                                                                                                               Installation Inspections



U.S. Army Garrison Okinawa (Torii Station)
USAG Okinawa is located in the central portion of Okinawa.  It is home to the
U.S. Army’s 10th Support Group, 1st Special Forces Group, and other units and
activities. USAG Okinawa has 4 barracks with a total of 320 housing units.                                                                          See
Table 8 for USAG Okinawa’s deficiencies.

Table 8. USAG Okinawa Deficiency Categorization
                                                                             Environmental




                                                                                                                          Housing Management
                                                         Asbestos/Lead/PCB
                   Fire Protection


                                     Electrical




                                                                                      Pest Control


                                                                                                     Structural




                                                                                                                                                  Total
                                                                              Radon




                                                                                                                  Water
                                                  Mold




     USAG
   Okinawa          22                 8           0         0                 0         0             0           0          0                   30
 (Torii Station)


From November 20 through November 21, 2013, we inspected 41 housing units
in 4 buildings. There were no NOC deficiencies at USAG Okinawa. We identified
base‑wide deficiencies. Fire protection deficiencies included a lack of smoke alarm
reliability and missing automatic sprinkler systems in some locations.  Electrical
deficiencies included exposed energized wiring and missing GFCI for kitchen
countertops, vending machines and bathrooms.




                                                                                                                                                          DODIG-2014-121 │ 21
Overall Findings and Recommendations




                 Overall Findings and Recommendations
                 The installations we inspected had established departments responsible for
                 operations inspection, testing, and maintenance of the buildings.  Installation
                 leadership and personnel were responsive to our information requests, on site
                 access, and inspection timelines.   We noted challenges associated with translation
                 and implementation of standards, codes, procedures, and instructions due to a
                 difference in primary languages (English and Japanese).    Despite these challenges,
                 installation personnel responsible for fire protection, electrical, and environmental
                 health and safety were knowledgeable of their respective areas and recognized
                 the need for improvements.  The following sections discuss our overall findings
                 and recommendations.




22 │ DODIG-2014-121
                                                                                           Finding A




Finding A
Inspection, Maintenance, and Repair
We documented a total of 1,057 deficiencies that were violations of health and
safety codes and requirements.        The majority of the deficiencies were attributed
to inadequate resources, and diligence to inspect, maintain, and repair housing
facilities. Inadequate inspections and maintenance can lead to costly repairs, damage
to Government buildings and facilities, and hazardous health and safety conditions
for the warfighters and their families.



Facilities management did not always adequately perform preventive, recurring,
and cyclic maintenance.  These maintenance activities ensure infrastructure and
supporting equipment such as HVAC, electrical, and water treatment and supply
function as intended. Adequate maintenance also reduces costly repairs and damage
to Government buildings and facilities. In addition, housing visits and inspections
were not being accomplished in accordance with established instructions and
procedures.  Without an adequate inspection program and appropriate records,
installation personnel cannot ensure that housing conditions are maintained at
required levels, affecting the quality of life for the occupants.


Recommendations, Management Comments,
and Our Response
Recommendation A
We recommend that the respective Military Departments, as applicable:

         a.	 Conduct an effective root cause analysis and corrective action for all
            1,057 deficiencies in this report.

         b.	 Ensure that these deficiencies do not exist in other housing units.

         c.	 Ensure the inspection, maintenance, and repair program is in
            compliance with applicable codes and standards for fire protection
            systems, electrical systems, and environmental health and safety.




                                                                                    DODIG-2014-121 │ 23
Finding A



                 United States Pacific Command
                 The U.S. Air Force Chief of Staff responding for USPACOM agreed.


                 United States Forces Japan
                 The Deputy Director, Logistics and Installations responding for USFJ agreed.


                 Department of the Army
                 The Deputy Assistant Secretary of the Army (Installations, Housing and Partnerships)
                 responding for the Army agreed.


                 Department of the Navy
                 The Director for Housing, Office of the Assistant Secretary of the Navy
                 (Energy, Installation, and Environment) responding for the Navy agreed.


                 Department of the Air Force
                 The Acting Assistant Executive Officer, AF/A7C, DCS/Logistics, Installation &
                 Mission Support, Office of the Director of Civil Engineers responding for the
                 Air Force agreed.


                 Our Response
                 Although management agreed with the findings and recommendations of this
                 report, some base commands disagreed with specific deficiencies in the NOCs
                 as listed in Table F1-F3 (See Appendix F).          Additional response is required
                 from the Service Components ensuring that they will coordinate with the base
                 commands to address the NOC deficiencies.




24 │ DODIG-2014-121
                                                                                           Finding B




Finding B
Fire Protection Systems
Installation personnel did not ensure that fire protection systems were properly
installed, periodically inspected, and maintained.  For example, smoke alarms,
sprinkler systems, and emergency exit signage were missing in many housing
buildings and units.    In addition, installation did not maintain the smoke alarms,
fire doors, sprinkler systems, or fire extinguishers as required by NFPA code. As a
result, risk of personnel injury or death is not effectively mitigated.


We identified 542 deficiencies in the area of fire protection; more than any other
area.  Figure 11 shows the breakdown of all the fire protection deficiencies in
the relevant categories.

Figure 11. Fire Protection Deficiencies




We identified inadequate detection, alarm, and communication systems throughout
installations in Japan.  For example, smoke alarms and detectors were not installed
in most sleeping rooms.  Several buildings with fire alarm control systems
were out of service, lacked periodic testing, or could not monitor or detect the
disconnected smoke detectors.       We identified inadequate fire suppression systems
that were missing important components such as standpipe riser locks and
sprinklers.  Many buildings did not have operational identification signs and
emergency lighting in the fire escape stairways and hallways.  Lastly, fire doors




                                                                                    DODIG-2014-121 │ 25
Finding B



                 in housing units did not automatically close or latch to separate the exit access
                 corridor from the laundry rooms, sleeping rooms, and lounges. These deficiencies
                 pose a risk that an uncontrollable fire will result in loss of life and property.
                 Inadequate signage and emergency lighting can result in delayed evacuation or
                 emergency response time, increasing the risk of injury or death to the occupants.


                 Recommendations, Management Comments,
                 and Our Response
                 Recommendation B
                 We recommend that the respective Military Departments, as applicable, ensure
                 that sufficient, qualified resources are available and assigned to inspect and verify
                 that all housing buildings and units are in compliance with requirements for fire
                 protection systems.


                 United States Pacific Command
                 The U.S. Air Force Chief of Staff responding for USPACOM agreed.


                 United States Forces Japan
                 The Deputy Director, Logistics and Installations responding for USFJ agreed.


                 Department of the Army
                 The Deputy Assistant Secretary of the Army (Installations, Housing and Partnerships)
                 responding for the Army agreed.


                 Department of the Navy
                 The Director for Housing, Office of the Assistant Secretary of the Navy
                 (Energy, Installation, and Environment) responding for the Navy agreed.


                 Department of the Air Force
                 The Acting Assistant Executive Officer, AF/A7C, DCS/Logistics, Installation &
                 Mission Support, Office of the Director of Civil Engineers responding for the
                 Air Force agreed.


                 Our Response
                 Comments from management addressed all specifics of the recommendation, and no
                 further comments are required.



26 │ DODIG-2014-121
                                                                                             Finding C




Finding C
Electrical Systems
Installation personnel did not ensure that electrical systems were properly installed,
periodically inspected and maintained.  For example, electrical grounding and
bonding, including the use of Ground Fault Circuit Interrupters (GFCIs) did not
meet electrical code. Inadequate installation, repair, and maintenance of electrical
systems increase the risk of fire and hazardous electrical conditions.




We categorized 420 electrical deficiencies into 7 categories. Figure 12 shows the
breakdown of all the electrical system deficiencies in the relevant categories.

Figure 12. Electrical Deficiencies




Some GFCIs were incorrectly installed or missing.  The lack of repair and
maintenance was evident by broken or missing shower light fixture covers and
improperly weatherproofed outdoor electrical boxes. In several buildings inspected,
energized wiring and splicing was exposed. We identified noncompliant grounding
and bonding that included open ground circuits on receptacles.           Junction boxes
were obstructed and inaccessible. Electrical disconnects were not located in sight
of the powered unit.  Lastly, we identified low-hanging electrical service‑drops
providing electricity to the main electrical panel of the house. These deficiencies
pose an electrocution hazard for installation personnel and occupants.



                                                                                      DODIG-2014-121│ 27
Finding C



                 Recommendations, Management Comments,
                 and Our Response
                 Recommendation C
                 We recommend that the respective Military Departments, as applicable, ensure
                 that sufficient, qualified resources are available and assigned to inspect and
                 verify that all housing buildings and units are in compliance with requirements
                 for electrical systems.


                 United States Pacific Command
                 The U.S. Air Force Chief of Staff responding for USPACOM agreed.


                 United States Forces Japan
                 The Deputy Director, Logistics and Installations responding for USFJ agreed.


                 Department of the Army
                 The Deputy Assistant Secretary of the Army (Installations, Housing and Partnerships)
                 responding for the Army agreed.


                 Department of the Navy
                 The Director for Housing, Office of the Assistant Secretary of the Navy (Energy,
                 Installation, and Environment) responding for the Navy agreed.


                 Department of the Air Force
                 The Acting Assistant Executive Officer, AF/A7C, DCS/Logistics, Installation &
                 Mission Support, Office of the Director of Civil Engineers responding for the
                 Air Force agreed.


                 Our Response
                 Comments from management addressed all specifics of the recommendation, and no
                 further comments are required.




28 │ DODIG-2014-121
                                                                                           Finding D




Finding D
Environmental Health and Safety
Installation personnel did not follow environmental regulations or best practices to
ensure the health and safety of occupants. For example, installation personnel did
not conduct preventive maintenance on HVAC units and identify source of moisture
intrusion in units with mold issues. In addition, radon surveillance and mitigation
was inadequate and did not meet Service-level requirements. As a result, personnel
may be exposed to higher than recommended levels of environmental hazards.


We identified 87 deficiencies relating to environmental health and safety.
Figure 13 shows the breakdown of all the environmental deficiencies in the
relevant categories.

Figure 13. Environmental Health and Safety Deficiencies




We identified excessive mold growth in occupied buildings.  When mold issues were
identified, rarely was the source of water intrusion addressed. In addition, there is
no DoD‑wide policy or guideline on mold mitigation and control.  We found that
most installations had adequate asbestos and lead-based paint hazard management
programs.  However, some installations had not updated their inventories to
identify materials with more than 0.1 percent asbestos content per the latest
asbestos‑containing material standards (refer to JEGS, Section C15.2.3). In addition,




                                                                                    DODIG-2014-121│ 29
Finding D



                 lead‑based paint inventories did not include newly constructed buildings or
                 buildings that had been modified.  Water quality was in compliance with
                 JEGS.  Lastly, pest infestation and poor eradication and control were evident in
                 some occupied buildings.

                 Several installations did not maintain radon surveys and databases. For example,
                 a comprehensive radon survey for all newly constructed or renovated housing
                 units in NAF Atsugi has not been conducted since 1991.          We also found a lack
                 of guidance on radon surveillance, mitigation, and control, despite EPA studies
                 stating that radon is a carcinogen that causes thousands of deaths each year. For
                 example, the OEBGD does not provide guidance on radon.  UFC  4‑711‑01 provides
                 guidance on radon for accompanied housing but not for unaccompanied housing.
                 Furthermore, a Department of the Army Radon Reduction Program was superseded
                 by Army Regulation (AR)  420‑1, which refers to AR  200‑1 for radon action level
                 guidelines; however, AR  200‑1 has no reference to radon. See Appendix  B for
                 further details of our inspection relating to radon.


                 Recommendations, Management Comments, and
                 Our Response
                 Recommendation D.1
                 We recommend that the respective Military Departments, as applicable, ensure
                 that sufficient, qualified resources are available and assigned to inspect and
                 verify that all housing buildings and units are in compliance with environmental
                 health and safety requirements.


                 United States Pacific Command
                 The U.S. Air Force Chief of Staff responding for USPACOM agreed.


                 United States Forces Japan
                 The Deputy Director, Logistics and Installations responding for USFJ agreed.




30 │ DODIG-2014-121
                                                                                            Finding D



Department of the Army
The Deputy Assistant Secretary of the Army (Installations, Housing and Partnerships)
responding for the Army agreed.


Department of the Navy
The Director for Housing, Office of the Assistant Secretary of the Navy
(Energy, Installation, and Environment) responding for the Navy agreed.


Department of the Air Force
The Acting Assistant Executive Officer, AF/A7C, DCS/Logistics, Installation &
Mission Support, Office of the Director of Civil Engineers responding for the
Air Force agreed.


Our Response
Comments from management addressed all specifics of the recommendation, and
no further comments are required.


Recommendation D.2
We recommend that Office of the Under Secretary of Defense for Acquisition,
Technology,    and    Logistics   (OUSD     (AT&L))    include   guidance   for   both
accompanied and unaccompanied housing within the OEBGD for:

        a.	 Control and remediation of mold.

        b.	 Radon evaluation and mitigation.


OUSD (AT&L)
The Acting Deputy Under Secretary of Defense (Installations and Environment)
responding for OUSD (AT&L) non-concurred and stated that because there is
no U.S. federal standard for radon or mold in the U.S., there is no standard that
would be applicable to U.S. facilities outside the U.S..     AT&L further stated that
modifying the OEBGD by creating standards for application outside the U.S. that
do not have application inside the U.S. would undermine the purpose of the OEBGD
to ensure practices outside the U.S. are carried out in a manner that is consistent
with what would be done inside the U.S.               To ensure each of the Military
Services’ practices are fully informed, AT&L will facilitate information sharing
of lessons learned across the Military Services.




                                                                                     DODIG-2014-121│ 31
Finding D



                 Our Response
                 We disagree with management comments from AT&L on mold and radon.
                 They did not address the specifics of the recommendations. The Navy and
                 Marine Corps Public Health Center stated that, “any extensive indoor mold
                 growth should be treated as a potential health concern and removed as soon
                 as practical — regardless of the kind of mold present.” The UFC also states that
                 humidity and moisture must be controlled to prevent mold growth in buildings
                 (UFC 4-711‑01, Section 7-1.9).      The UFC provisions are indeterminate and leave
                 each service and base to develop its own mold prevention plans, which we found
                 were not effectively implemented. Moreover, they conflict with other energy-saving
                 policies that reward bases for saving energy but resulted in ambient conditions
                 that promote mold growth.

                 The Indoor Radon Abatement Act of 1988 established a long-term goal that indoor
                 air be as free from radon as the ambient air outside buildings. This is facilitated
                 by 15  U.S.C. 2669 which states, “The head of each Federal department or agency
                 that owns a Federal building shall conduct a study for the purpose of determining
                 the extent of radon contamination in such buildings.”           Because the law requires
                 the study within the U.S., it would be reasonable to apply a similar standard
                 for overseas buildings housing U.S. service members and their families.

                 Radon is also addressed in UFC 4-711-01, “Family Housing,” dated July  2006.
                 UFC 4-711‑01 provides guidance on radon for accompanied housing but not for
                 unaccompanied housing. Section 7-1.6, “Radon,” points to the EPA guidelines
                 for construction and mitigation.       According to the EPA, family housing should
                 be designed, constructed, and improved in accordance with EPA document
                 59  CFR  13402, “Model Standards and Techniques for Control of Radon in New
                 Residential Buildings,” dated March 1994.             EPA documents contain guidelines
                 on testing, designing and constructing radon mitigation.             Additional guidance
                 for testing, designing and constructing radon mitigation systems is contained in
                 EPA  625-R-92-016, 625-R‑93-011, 402-R-93-078, 402-R-93-003, and 402‑R‑92‑004.
                 Radon evaluation and testing can also be found in UFC 3-490-04A and UFGS
                 13287, “Radon Mitigation,” dated August 2004.               Furthermore, UFGS 312113,
                 “Radon Mitigation,” dated August 2011, specifies requirements for diagnostic
                 testing for radon and designing and constructing radon mitigation systems
                 in   existing   buildings   and   facilities.  UFGS    312113    specifies   that,   “Radon
                 mitigation systems shall reduce and maintain radon concentration levels below
                 148  Bequerels per cubic meter (4.0 pCi/L) in various buildings specified.
                 Therefore we request that management reconsider its position and provide
                 additional comments.

32 │ DODIG-2014-121
                                                                                               Finding E




Finding E
Housing Management
Housing management systems were not fully implemented and procedures were
not always followed by installation personnel.  Specifically, there was inadequate
housing maintenance information and record-keeping, slow response times to
emergency service calls, lack of service calls and work order prioritization, and lack
of follow-up.  As a result, issues were not addressed in a timely manner and
occurrences of similar issues were not prevented.


Although, there were only eight deficiencies in the area of housing management,
their impact and effect span across other deficiency categories.         For example, we
identified housing management issues at Camp Foster and Camp Kinser where
preventive and recurring maintenance was not performed in several buildings
as required by Marine Corp Bases Japan Order 11014.1, “Standard Operating
Procedure    for   Facilities    Maintenance.”    Monthly   preventive   maintenance   is
required for central air conditioning equipment, especially in high humidity
climates of installations in Okinawa.      At several units inspected in Camp Kinser,
we found no maintenance records for air-conditioning units that had moderate to
significant mold on supply vents.

We identified issues with service call prioritization and response.  Some service
calls of a higher priority were not addressed appropriately, creating significant
risk to building occupants. At Camp Foster, housing management did not respond
to an emergency maintenance call nor did they create a service work order.             A
tenant in an unaccompanied housing unit reported a power outage in the
bathroom 7 days prior to our inspection; however, no action had been taken by
housing management and there is no record of the issue.

There were three main issues noted with the Interim Work Information
Management System (IWIMS) at Kadena Air Base, which is a database that contains
housing maintenance work orders.          First, housing management is not consistent
with recording information about maintenance calls.  Second, IWIMS lacks
information on maintenance call mitigation and repair activities.          Third, IWIMS
data is not being used to determine trends in housing issues, root causes and
corrective action, or lessons learned for the entire installation.  As a result,
management is unaware of the corrective action taken and cannot prevent
occurrences of similar issues.



                                                                                        DODIG-2014-121│ 33
Finding E



                 Recommendations, Management Comments,
                 and Our Response
                 Recommendation E
                 We recommend that the respective Military Departments, as applicable, ensure
                 that housing management systems and processes are fully implemented and
                 followed for all installations.  This includes improving processes for tracking
                 service calls and work orders through completion, ensuring that inspections
                 and maintenance are conducted as required, and analyzing historical work
                 order information for trends and lessons learned to improve housing
                 management programs.


                 United States Pacific Command
                 The U.S. Air Force Chief of Staff responding for USPACOM agreed.


                 United States Forces Japan
                 The Deputy Director, Logistics and Installations responding for USFJ agreed.


                 Department of the Army
                 The Deputy Assistant Secretary of the Army (Installations, Housing and Partnerships)
                 responding for the Army agreed.


                 Department of the Navy
                 The Director for Housing, Office of the Assistant Secretary of the Navy (Energy,
                 Installation, and Environment) responding for the Navy agreed.


                 Department of the Air Force
                 The Acting Assistant Executive Officer, AF/A7C, DCS/Logistics, Installation &
                 Mission Support, Office of the Director of Civil Engineers responding for the
                 Air Force agreed.


                 Our Response
                 Comments from management addressed all specifics of the recommendation, and no
                 further comments are required.




34 │ DODIG-2014-121
                                                                                       Appendixes




Appendix A
Scope and Methodology
We conducted this inspection from July 2013 through June 2014 to meet the
intent of the Council of the Inspectors General on Integrity and Efficiency Quality
Standards for Inspection and Evaluation.  Those standards require that we plan
and perform the inspection to obtain sufficient, appropriate evidence to provide
a reasonable basis for our findings and conclusions based on our inspection
objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our inspection objectives.

We conducted an inspection of military housing in Japan for applicable requirements
and specifications for:

         •	 Fire protection systems

         •	 Electrical systems

         •	 Environmental health and safety

                   {{   Radon,

                   {{   Mold,

                   {{   Pest infestation,

                   {{   Water quality,

                   {{   Lead-based paint,

                   {{   Asbestos, and

                   {{   Radiation

         •	 Housing management

We did not include Housing Management in our inspection of NAF Atsugi,
Camp Zama, CFA Yokosuka, and Misawa Air Base.  After analyzing deficiencies
from the first site visit, we established a Housing Management team to address
systemic issues.




                                                                                  DODIG-2014-121 │ 35
Appendixes



                 Government contract administration policies and practices were not the focus of
                 this inspection. Additionally, we did not identify and evaluate the performance of
                 specific service contractors supporting USFJ.


                 Use of Technical Assistance
                 Fire protection engineers, environmental engineers, master electricians, industrial
                 hygienists, radiation health physicists, and quality assurance engineers assisted with
                 this inspection. Subject matter experts were certified in their associated field, with
                 several years of experience.


                 Use of Computer-Processed Data
                 We did not use computer-processed data to perform this audit.


                 Documentation Methodology
                 All meetings, analysis, and other work was documented in the form of work papers.
                 These work papers and references were cataloged in SharePoint.           SharePoint was
                 used as the primary organization and referencing tool for the project.

                 When deficiencies required immediate action, NOCs were issued.           The remaining
                 deficiencies are documented in this report in accordance with the Technical
                 Assessment Directorate’s operating procedures, including all relevant quality control
                 steps/certifications.   Populated forms for each deficiency identified can be located
                 in Appendix G.




36 │ DODIG-2014-121
                                                                                              Appendixes




Appendix B
Radon Survey Results
Objective
The objective was to verify that installations implemented a testing program to identify
the level of indoor radon, determine whether indoor radon levels were above the
EPA‑recommended levels, and verify that radon mitigation systems were installed in
buildings with indoor radon levels above 4 picocuries per liter (pCi/L).  Also, we
evaluated each Service’s radon policies and guidelines.


Scope and Methodology
As part of this inspection, an independent radon survey was completed on buildings
selected at random.  We measured ambient radon levels in housing facilities on
U.S. military installations. Radon detectors were placed in 50 housing facilities in
mainland Japan and 54 housing facilities in Okinawa (both accompanied family
housing and unaccompanied quarters).  We made an independent selection of the
units to have detectors installed based on housing type (e.g. high-rise, duplex, etc.).  We
placed a minimum of five detectors plus additional redundant detectors per base.

Measurements were taken using passive Landauer Radtrak® alpha-track radon
detectors for 90 days to measure indoor radon levels.  Detectors were placed
in housing units or available common areas of the lowest occupied floor.  
Radtrak® measures the average radon concentration at the detector’s location
during the monitoring period.  The alpha-track detector has a radiosensitive
element that records alpha particle emissions (alpha tracks) from radon’s natural
radioactive decay.  Specific radon detector placement within housing units followed
EPA 402-R-92-003, Protocols for Radon and Radon Decay products Measurements
in Homes, May 1993, recommendations.  For quality control, duplicate detectors
were placed at a minimum of 10 percent of the monitoring locations.  Also, field
blanks (to measure background exposure that may accumulate during shipment and
storage) were submitted to the laboratory for each installation tested.  Landauer
meets National Radon Proficiency Program (NRPP) requirements and is a NRPP
certified laboratory.  Additional details on the tests can be provided upon request.

Laboratory results are provided in picocuries per liter (pCi/l) for comparison with
the EPA’s guideline value of 4.0 pCi/l.  Retesting of radon is recommended for
housing units with radon levels that are equal to or greater than 4.0 pCi/l and/or
there is a statistically significant difference between the results of duplicate


                                                                                         DODIG-2014-121 │ 37
Appendixes



                 detects.  Where subsequent monitoring confirms an indoor radon level of 4.0 pCi/l
                 or greater, radon mitigation strategies should be considered in accordance with the
                 latest standards or guidance applicable to military housing in overseas locations.


                 Criteria
                 Radon is a naturally occurring, chemically inert, ubiquitous radioactive gas that is
                 found in the air, water, and soil.  Radon migrates from the surrounding soil into
                 buildings; it enters through air spaces around pipes, cracks in concrete slabs
                 and basement foundation blocks, and pores in concrete masonry units.  In the
                 United States, the radon concentration for outdoor air ranges from 0.02 to  1.0  pCi/L
                 and for indoor air, the average is 1.25 pCi/L.  According to the EPA, radon
                 is a carcinogen that causes thousands of deaths each year.  It is the second
                 leading cause of lung cancer after active smoking and the leading cause among
                 nonsmokers.  The EPA recommends that homeowners mitigate their homes if
                 the radon level is 4.0 pCi/L or greater and consider mitigation if the levels are
                 between 2.0 pCi/L and 4.0 pCi/L.


                 Survey Results
                 The following are deficiencies identified based on our independent radon
                 testing.   Details on each item listed below can be found on the deficiency forms.  
                 See Appendix G:

                            1)	NAF Atsugi: One building with radon level at 17.5 pCi/L but the
                              duplicate (in this case) for the same location showed levels that were
                              “below detection limit.”  We recommend retesting that location.

                            2)	CFA Yokosuka: Two buildings with elevated radon levels; one building
                              at 5.35 pCi/L and the second building at 23.75 pCi/L.  We recommend
                              retesting the locations.

                            3)	Kadena AB: One building with radon level at 4.08 pCi/L and
                              4.39 pCi/L in two separate units.  We recommend retesting that location.

                            4)	MCAS Futenma: One building with radon level at 5.18 pCi/l.  We
                              recommend retesting that location.

                            5)	Camp Courtney: One building with radon level at 8.84 pCi/L.  We
                              recommend retesting that location.




38 │ DODIG-2014-121
                                                                                         Appendixes



Radon Policy Evaluation
Based on our evaluation of policies and guidelines governing radon mitigation,
we noted that there is no overall DoD policy in regards to acceptable levels of
radon. However, radon is addressed in the UFC 4‑711-01, “Family Housing,” dated
July  2006. In addition, the Unified Facilities Guide Specifications (UFGS) 31 21 13,
“Radon Mitigation,” dated August 2011 establishes performance requirements.

UFC 4-711-01 provides guidance on radon for accompanied housing but not
for unaccompanied housing.  Section  7-1.6 Radon states that, “Follow EPA
recommendations for construction and mitigation.  Family housing should be
designed, constructed, and improved in accordance with EPA document—Model
Standards and Techniques for Control of Radon in New Residential Buildings,
59 CFR 13402 (March   1994).      Guidelines for evaluation and need and required
testing can be found in UFC 3-490-04A, EPA Radon Mitigation Standards, and
UFGS 13287 Radon Mitigation (August 2004).”

UFGS 31 21 13, section 1.4.1 Performance Requirements, states that, “Radon
mitigation systems shall reduce and maintain radon concentration levels below
[148 Bequerels per cubic meter] [4.0  pCi/L] in various buildings specified
herein.   Test, design and construct radon mitigation systems in accordance with
EPA 402-R-93-078, EPA 402-R-93-003, EPA 402-R-92-004 and as specified herein.
Additional guidance for testing, designing and constructing radon mitigation
systems is contained in EPA 625-R-92-016 and EPA 625-R-93-011.”

In the absence of a DoD policy, each Service has its own defined limits on
monitoring and remediation terms.     Information on radon requirements by each
Service is shown in Table B.




                                                                                    DODIG-2014-121 │ 39
Appendixes



                 Table B. Radon Requirements by Military Service

                                                Army                   Navy/Marine Corps                   Air Force
                      Service        Army Regulation (AR            OPNAV Instruction             Air Force Instruction
                      Requirement    420-1), “Army Facilities       5090.1C Change                (AFI) 48-148, “Ionizing
                                     Management,” dated             Transmittal 1                 Radiation Protection”
                                     2012                           “Environmental Readiness      dated 21 September 2011
                                                                    Program Manual,” 18 July
                                                                    2011

                                                                    Navy Radon Assessment
                                                                    and Mitigation Program
                                                                    (NAVRAMP) Guidance
                                                                    Document for Navy
                                                                    Family Housing, dated 10
                                                                    September 2002
                      Mitigation     Chapter 3, Paragraph           5090.1C, Sec 21-5.26          Section 5.3 The
                      Phase/Action   3-47c, states, “The EPA        Radon. Navy activities        remediation schedule
                      Levels         has published monitoring       shall manage their radon      should adhere to the
                                     guidance, radon relative       program in accordance         following schedule: >  20
                                     risk information, and          with the NAVRAMP              pCi/L within one year, 4 -
                                     action level guidelines                                      20 pCi/L, within 1-3 years.
                                     (see AR 200-1).                30-5 Navy Policy              Any installation found to
                                     Installations will establish   30-5.1 General. Navy          have a single structure
                                     a radon assessment             installations shall           with concentrations
                                     and mitigation program         undertake mitigation          greater than 4 pCi/L
                                     per guidance from              measures in buildings         shall undergo a detailed
                                     the Environmental              determined to have            assessment.
                                     Management Office.”            indoor radon levels above
                                                                    4 pCi/L.

                                                                    Marine Corps Order
                                                                    (MCO) P5090.2A
                                                                    Change 3, “Environmental
                                                                    Compliance and
                                                                    Protection Manual,”
                                                                    August 26, 2013, states
                                                                    that, “In buildings with
                                                                    indoor radon levels above
                                                                    4 pCi/L, the Marine Corps
                                                                    must reduce radon to
                                                                    acceptable levels.”
                      Post           No guideline because AR        NAVRAMP Sec 3.3 Page          Post remediation:
                      Mitigation     200-1, dated December          20: After mitigation in the   Remediated structures
                      Phase          13, 2007 no longer             housing area has been         shall be reassessed by
                                     contains any reference to      completed, at a minimum       the IRSO for ambient
                                     radon                          of every two calendar         radon concentrations
                                                                    years, all radon reduction    no less than two weeks
                                                                    systems will be inspected     and no greater than six
                                                                    by a qualified mitigator      months post remediation
                                                                    and retested.                 to validate the efficacy of
                                                                                                  the remedial action.


                 We noted deficiencies, during the course of the inspection, which related to
                 installations not maintaining radon surveys and databases as required by the
                 respective Service policy.




40 │ DODIG-2014-121
                                                                                                              Appendixes




Appendix C
Radiation Survey Results
Objective
The objective of the radiation survey was to determine background radiation levels
of indoor housing facilities and adjacent outdoor areas, to evaluate health risks
associated with an estimated individual effective dose, and to establish baseline
data for future reference in the event of subsequent environmental changes
from natural or man-made causes.  

Figure 14. Radiation Measurements




Scope and Methodology
We measured ambient radiation levels of building materials in housing facilities
on U.S. military installations in Japan.2  Radiation surveys were conducted in a
total of 52 housing facilities in mainland Japan and 65 housing facilities in Okinawa
(both accompanied family housing and unaccompanied quarters).  Additionally,
more than 120 external radiation measurements were taken in outdoor areas
(see Figure 15), which included playgrounds and exterior perimeters of housing
units and buildings, direct surface measurements of counter tops, floors, bathroom

	2	
      DoD IG Housing Inspection - Asia Radiological Assessment. Raynard K. Fong, MS CHP, June 4, 2014.




                                                                                                         DODIG-2014-121 │ 41
Appendixes



                 ceramic tile floors and walls using an inventory of DoD radiation equipment.  Soil,
                 air, food, or water sampling was not within the scope of this inspection and
                 therefore not performed. Measurements were taken using systematic and static
                 scanning methods with calibrated hand‑held portable DoD supplied RADIACS
                 and instruments.  The exposure rate measurements were used to estimate the
                 annual mean individual effective dose at each USFJ military installation.

                 The radiological survey was based on the following survey methods and approaches:

                             •	 Static and systematic integrated external radiation exposure measurements
                                 of ambient gamma radiation levels of selected indoor housing facilities
                                 and adjacent outdoor areas such as playgrounds and parks.

                             •	 Systematic scanning surveys of ambient radiation levels throughout living
                                 areas of each housing facility for gross surface and/or ambient beta
                                 and gamma radiation.

                             •	 Contact measurements to evaluate alpha radiation in building materials,
                                 ceramic tile floors and walls, granite table tops, countertops, and
                                 tile flooring.  

                             •	 Isotope identifier for identifying gamma emitting radionuclides of areas
                                 where elevated measurements are observed.

                 The survey was accomplished using DoD radiation survey equipment supplied by
                 Navy, Army, and Air Force activities in USFJ.  Information on the survey instruments
                 used in the field and source providers are listed in Table C.  

                 Table C. DoD Instruments Provided by USFJ Activities
                          Activity        Manufacturer         Model           Serial No.    Calibration Date
                        AFMC DET 3       Fluke Biomedical       451P           F406871          8-Aug-13
                      Kadena, Okinawa          BNC          Sam 940 Eagle       41120        Self-Calibration
                      BEE Misawa Air     Fluke Biomedical       451B         M9970J021976       20 Nov 12
                           Base
                                         Fluke Biomedical       451B             0581            7 Jan 13
                      USAPHC-P Zama
                                                                451P             3011           6 Aug 13
                          Yokota            Canberra          ADM-300          F022580          25 Jan 13
                         Air Base           Canberra          ADM-300          AP-59225         25 Jan 13
                          USNH                 SAIC          IM-265/PDQ         A00515          2 Nov 13
                         Yokosuka              SAIC            DT-680           A04633          2 Nov 13
                                           AN/PDR-77        IM-263/DT 669         539           14 Apr 11
                       MCAS Iwakuni
                                          DOT unit 1956     identiFINDER-2   910385-1089     Self-Calibration



42 │ DODIG-2014-121
                                                                                       Appendixes



Health physicists generally agree on limiting a person’s exposure beyond
background radiation to about 1 millisieverts (mSv) per year from all sources.  
Exceptions are occupational, medical or accidental exposures.  EPA and other
regulatory agencies generally limit exposures from a specific source to the public
to levels under 1  mSv.  From a health risk perspective, the Health Physics Society
recommends against quantitative estimation of health risks below an individual
dose of 50 mSv per year, or lifetime dose of 100 mSv above natural sources.3




  Figure 15. Scanning survey of park area, NAF Atusgi
  Source: DoD OIG




	3	
      Position Statement of the Health Physics Society, revised August 2004.




                                                                                  DODIG-2014-121 │ 43
Appendixes



                 Survey Results
                 All radiation measurements were consistent with expected background radiation
                 (natural radiation that is always present in the environment) exposure levels in
                 their respective prefectures.  All calculations were done on exposure rate basis
                 and summed over a 365-day period to estimate the individual yearly dose.  Static
                 measurements were taken .001 mSv in per minute then hourly rates were calculated
                 and multiplied by 8,760 hours per year (24 h d-1 x 365 d yr -1).  To simplify the
                 calculations, and as a general approximation, conversions and weighting factors
                 were assumed to conservatively estimate individual effective dose values.  For this
                 survey, equivalent dose is equivalent to effective dose.  Estimates of time spent
                 indoors and outdoors were factored into the calculation for individual effective
                 dose. The calculated radiation dose from external radiation exposure is considered
                 low, and there are no demonstrable radiation-induced health effects at these low
                 levels. The low external radiation levels measured readings during the surveys were
                 assumed to be primarily from cosmic and terrestrial environmental sources.

                 The estimated mean effective dose at each USFJ military installation was less
                 than 1 mSv per year. In mainland Japan, the military installation with the highest
                 and lowest estimated mean annual dose was, respectively, CFA Yokosuka with
                 0.96 mSv per year, and Misawa Air Base (AB) with 0.73 mSv per year.              In
                 Okinawa, the military installation with the highest and lowest estimated mean
                 annual dose was, respectively, Kadena AB with 0.85 mSv per year, and USAG
                 Okinawa with 0.66 mSv per year. Isotopic analyses of selected areas in housing
                 facilities indicate the presence of natural occurring radioactive material (NORM)
                 but no industrial or medical radioactive isotopes were identified.

                 The estimated individual annual doses at each USFJ installation were very low.
                 Consequently, the individual health risks associated with these low doses are
                 considered negligible. At these levels, there are no demonstrable radiation‑induced
                 health effects.




44 │ DODIG-2014-121
                                                                                            Appendixes




Appendix D
Inspection Criteria List
DoD and Services Policies and Standards
DoDI 6055.05, “Occupational and Environmental Health,” November 11, 2008

DoDI 4165.63, “DoD Housing,” July 21, 2008

DoDD 4715.1E, “Environmental Safety and Occupational Health,” March 19, 2005

DoD 4165.63-M, “DoD Housing Management,” October 28, 2010

DoDI 4715.5, “Management of Environmental Compliance at Overseas Installations,”
April 22 , 1996 (canceled)

DoDI 4715.05, “Environmental Compliance at Installations Outside the United States,”
November 1, 2013

DoD 4715.05-G, “Overseas Environmental Baseline Guidance Document,” May 1, 2007

DoDD 4270.34, “Host Nation-Funded Construction Programs in the U.S. Pacific
Command Area of Responsibility,” April 24, 2007

DoDI 4150.07, “DoD Pest Management Program,” May 29, 2008


Unified Facilities Criteria (UFC)
UFC 3-520-01, “Interior Electrical Systems,” Change 2, July 01, 2012

UFC 3-560-01, “Electrical Safety, O&M,” Change 4, May 01, 2012

UFC 3-600-01, “Fire Protection Engineering for Facilities,” Change 3, March 01, 2013

UFC 3-601-02, “Operation and Maintenance: Inspection, Testing, and Maintenance of
Fire Protection Systems,” September 08, 2010

UFC 4-711-01, “Family Housing,” July 13, 2006

Unified Facilities Guide Specifications (UFGS) 31 21 13, “Radon Mitigation,” August 2011




                                                                                       DODIG-2014-121 │ 45
Appendixes



                 Electrical Standards Criteria
                 National Fire Protection Association (NFPA) 70®, “National Electrical Code® (NEC®),”
                 2011 Edition

                 NFPA 70E®, “Standard for Electrical Safety in the Workplace®,” 2012 Edition

                 Base Order (BO) 5100 31B, “Ground Occupational Safety and Health Program, SOP 12,
                 MCBO Lockout and Tagout Standard Operating Procedure,” February 26, 2013


                 Fire Protection Standards Criteria
                 NFPA 1, “Fire Code,” 2012 Edition

                 NFPA 10, “Standard for portable fire extinguishers,” 2010 Edition

                 NFPA 13, “Standard for the Installation of Sprinkler Systems,” 2010 Edition

                 NFPA 13D, “Standard for the Installation of Sprinkler Systems in One- and Two-Family
                 Dwellings and Manufactured Homes,” 2010 Edition

                 NFPA 13R, “Standard for the Installation of Sprinkler Systems in Low-Rise Residential
                 Occupancies,” 2010 Edition

                 NFPA 58, “Liquefied Petroleum Gas Code Handbook,” 2011 Edition

                 NFPA 72, “National Fire Alarm and Signaling Code,” 2010 Edition

                 NFPA 101, “Life Safety Code,” 2012 Edition


                 General Environmental Health and Safety Criteria
                 DoD “Japan Environmental Governing Standards (JEGS),” December 2012

                 Department of the Navy Memorandum, “Interim Technical Guidance (ITG) FY 03-4,
                 NAVFAC Mold Response Manual,” June 06, 2003

                 OPNAVINST 5100.23G CH-1, “Navy Safety and Occupational Health Program Manual,”
                 July 21, 2011

                 OPNAVINST 5100.23G, “Navy Safety and Occupational Health Program Manual,”
                 December 30, 2005




46 │ DODIG-2014-121
                                                                                        Appendixes



Navy Environmental Health Center Technical Manual NEHC-TM6290.91-2 Rev. B,
“Industrial Hygiene, Field Operations Manual,” March 1999

Facilities Criteria (FC) 4-721-10N, “NAVY and Marine Corps Unaccompanied Housing,”
November 01, 2012, Change 2, May 01, 2013

Marine Corps Bases Japan Order (MCBJO) 11014.1, “Standard Operating Procedures
(SOP) for Facilities Maintenance,” January 19, 2011

Marine Corps Order (MCO) P5090.2A Change 3, “Environmental Compliance and
Protection Manual,” August 26, 2013

NAVMC DIR 5100.8, “Marine Corps Occupational Safety and Health Program Manual,”
May 15, 2006

NAVFAC     “Navy    Radon     Assessment   and   Mitigation   Program   (NAVRAMP),”
September 10, 2002

CNFJ 11101.15 Change 1, “Handbook for Resident of COMNAVFORJAP Military Family
Housing,” August 12, 2005

Department of the Air Force Memorandum, “Interim Policy and Guidance for
the Prevention, Surveillance, and Remediation of Water Damage and Associated
Mold Contamination in Air Force (AF) Facilities,” May 10, 2005

Air Forces Instruction (AFI) 91-203, “Air Force Consolidated Occupational Safety
Instruction,” July 25, 2013

AFI 48-148, “Ionizing Radiation Protection,” September 21, 2011

AFI 32-6001, “Family Housing Management,” October 24, 2008

AFI 32-6005, “Unaccompanied Housing Management,” October 09, 2008

AFI 32-1001, “Civil Engineering Operations Management,” September 01, 2005

AFI 32-2001, “Fire Emergency Service Program,” September 09, 2008

Air Force Memorandum, “Policy to Implement Work Prioritization Model,” June 14, 2013

Army Regulation (AR) 420-1, “Army Facilities Management,” August 24, 2012




                                                                                   DODIG-2014-121 │ 47
Appendixes



                 DA PAM 420-1-1, “Housing Management,” April 02, 2009

                 DA PAM 200-1, “Army Radon Reduction Program,” January 17, 2002

                 U.S. Army Center for Health Promotion and Preventive Medicine (USACHPPM) Technical
                 Guide 277, “Army Facilities Management Information Document on Mold Remediation
                 Issues,” February 2002

                 U.S. Army Center for Health Promotion and Preventive Medicine (USACHPPM)
                 Technical Guide 278, “Industrial Hygiene/Preventive Medicine Mold Assessment Guide,”
                 February 2002

                 Camp Zama “Department of Public Work (DPW), Standard Operating Procedure
                 (MOLD/MILDEW),” December 12, 2011

                 DARWG-TP-12-01 Version 1.04, “Post 3-11 Radiological Assessment of U.S. Military
                 Installations in Japan,” May 23, 2012

                 American Society of Civil Engineers (ASCE), “Guideline for Structural Condition
                 Assessment of Existing Buildings,” November 1999

                 Contract No N40084-09-D-0003, “Structural Study Building Nos. 219, 220, 652,
                 and 503 MCAS Futenma, Okinawa,” May 17, 2011

                 Contract N40084-11-D-0020 Work Request No 3 Field Investigation Documentation
                 and Engineering Report, “Provide Geotechnical Foundation Assessment Study
                 for Existing BEQ 473, Camp Foster,” October 22, 2012




48 │ DODIG-2014-121
                              Appendixes




Appendix E
Sample Deficiency Form




                         DODIG-2014-121 │ 49
Appendixes




                 Appendix F
                 Notices of Concerns and Responses
                 We issued three Notices of Concerns (NOCs) to U.S. Pacific Command (PACOM)
                 and U.S. Forces Japan (USFJ).

                         •	 DoD OIG NOC 1, November 8, 2013 - NAF Atsugi, Camp Zama, CFA Yokosuka,
                            and Misawa Air Base;

                         •	 DoD OIG NOC 2, December 19, 2013 - Kadena Air Base, Camp Lester, Camp
                            Foster, MCAS Futenma, Camp Kinser, Camp Courtney, Camp McTureous,
                            Camp Hansen, and Camp Schwab

                         •	 DoD OIG NOC 3, March 26, 2014 - MCAS Iwakuni

                 The NOCs identified critical health and safety deficiencies requiring immediate
                 corrective action.   Management was then invited to comment on our NOCs.         We
                 commend PACOM, USFJ and their respective base commands on their rapid
                 response in initiating the correction of the critical deficiencies identified during
                 the military housing inspection and listed in the NOCs. In their responses,
                 some individual base commands took exception to some areas of concerns.
                 These are listed with our response in the following Tables F1, F2, and F3, and
                 then followed by our original NOCs.

                         •	 Table F1. Disputed Deficiencies NOC 1 November 8, 2013 - NAF Atsugi,
                            Camp Zama, CFA Yokosuka, and Misawa Air Base

                         •	 Table F2.   Disputed Deficiencies NOC 2 December 19, 2013 - Kadena
                            Air Base, Camp Lester, Camp Foster, MCAS Futenma, Camp Kinser,
                            Camp Courtney, Camp McTureous, Camp Hansen, and Camp Schwab

                         •	 Table F3. Disputed Deficiencies NOC 3 March 26, 2014 - MCAS Iwakuni




50 │ DODIG-2014-121
                                                                                                           Appendixes



Table F1. Disputed Deficiencies NOC 1 November 8, 2013 - NAF Atsugi, Camp Zama,
CFA Yokosuka, and Misawa Air Base
        NOC Deficiency           Management Response                       Our Response
                              Non-Concur: Standard practice        We disagree: In all deficiencies
                              is to install GFCI protected         electrical panels were
                              circuit breakers in the electrical   checked and tested to verify
                              panel serving the housing unit.
 Lack of Ground Fault                                              if the particular circuit being
                              It is U.S. Army Engineering
 Interrupters (GFCI)                                               inspected was GFCI breaker
                              District, Japan’s (USAEDJ)
 46 deficiencies Identified                                        protected and functioning.
                              technical position that the          This indicates that the host
                              Host Nation Construction             nation requirements are not
                              (HNC) practice meets the NEC         being met.
                              requirement for GFCI.
                                                                   We disagree: It appears that
                                                                   an incorrect interpretation
                              Non-Concur: Current GOJ              of an equipment ground
                              practice meets requirement.          deficiency (ZAM-
 Lack of Bonding between
                              USAEDJ will continue to verify       EL-130923-007) as a bonding
 ground and neutral bars in   the appropriate bonding              violation may cause all bonding
 main panels                  between the neutral and              violations to be dismissed.
 11 deficiencies identified   ground bar in the main service       We are encouraged that an
                              disconnect.                          assessment will be performed
                                                                   to determine if any of the
                                                                   older units are in compliance.


Table F2. Disputed Deficiencies NOC 2 December 19, 2013 - Kadena Air Base, Camp Lester,
Camp Foster, MCAS Futenma, Camp Kinser, Camp Courtney, Camp McTureous,
Camp Hansen, and Camp Schwab
        NOC Deficiency           Management Response                       Our Response
                                                                   We disagree: In all deficiencies
                              Non-Concur: Standard practice        electrical panels were
                              is to install GFCI protected         checked and tested to verify
 Lack of Ground Fault         circuit breakers in the electrical   if the particular circuit being
 Interrupters (GFCI)          panel serving the housing unit.      inspected was GFCI breaker
 97 deficiencies identified   It is USAEDJ’s technical position    protected and functioning.
                              that the HNC practice meets          This indicates that the host
                              the NEC requirement for GFCI.        nation requirements are not
                                                                   being met.
                              Non-Concur: Current GOJ              We disagree: USFJ’s Response
                              practice meets requirement.          does not indicate that
 Lack of Bonding between      USAEDJ will continue to verify       conditions cited in these
 ground and neutral bars in   the appropriate bonding              deficiencies were investigated;
 main panels                  between the neutral and              therefore we maintain that
 3 deficiencies identified    ground bar in the main service       these deficiencies are accurate
                              disconnect.                          and correct.




                                                                                                      DODIG-2014-121 │ 51
Appendixes



                 Table F3. Disputed Deficiencies NOC 3 March 26, 2014 - MCA S Iwakuni
                              NOC Deficiency                Management Response                    Our Response
                      Exit stair doors and frames                                          We disagree: Response did not
                      have no evidence indicating        Non-Concur: Standard law of       identify what DoD instruction,
                      that they are fire rated/fire-     Japan has no requirement for      standard, or regulation
                      resistant.                         fire rating labels on doors or    permits use of local products
                      IWA-FP-140303-032, 036, 057,       frames.                           that do not meet NFPA 101
                      & 063                                                                requirements.
                                                                                           We disagree: Compliance with
                                                                                           current requirements can also
                                                                                           be triggered by specific work
                                                                                           in the vicinity of the laundry
                      Laundry rooms were not                                               rooms, such as the renovation
                      properly separated from the                                          work resulting in partial
                                                         Non-Concur: The finding
                      rest of the floor by fire-rated                                      demolition of laundry room
                                                         applies to new hotels and
                      construction.                                                        walls. When rebuilt, those
                                                         dormitories.
                      IWA-FP-140303-070, 099, 100,                                         walls must comply with the
                      & 101                                                                current code, in accordance
                                                                                           with UFC 3-600-01 §1-3.2.2.
                                                                                           Response did not document
                                                                                           continuity of the existing
                                                                                           condition without renovation.
                                                         Non-Concur: Valves for water      We disagree: While some
                                                         supply to the sprinkler system    control valves in the fire pump
                      Non-position indicating valves     provide visual indication of      room were indicating-type
                      are installed in sprinkler         whether they are open or          valves, not all control valves
                      system supply pipes making         closed and are now locked.        were indicating. Locking is a
                      it difficult to determine if the   Also fire protection contractor   good interim measure, but
                      valve is opened or closed.         performs intermediate             does not correct the deficiency
                      IWA-FP-140303-080                  maintenance for the fire          of non-indicating valves in the
                                                         pumps in accordance with          sprinkler system.
                                                         UFC.




52 │ DODIG-2014-121
                                                       Appendixes



NOC 1: NAF Atsugi, Camp Zama, CFA Yokosuka, and
Misawa Air Base (November 8, 2013)
DoD OIG NOC 1, November 8, 2013




                                                  DODIG-2014-121 │ 53
Appendixes



                 DoD OIG NOC 1, November 8, 2013 (cont’d)




54 │ DODIG-2014-121
                                                                                                                 Appendixes



NOC 2: Kadena Air Base, Camp Lester, Camp Foster,
MCAS Futenma, Camp Kinser, Camp Courtney,
Camp McTureous, Camp Hansen, and Camp Schwab
(December 19, 2013)
DoD OIG NOC 2, December 19, 2013

                                          INSPECTOR GENERAL
                                           DEPARTMENT OF DEFENSE
                                           4800 MARK CENTER DRIVE
                                        ALEXANDRIA, VIRGINIA 22350-1500




                                                                                      December 19, 2013

     MEMORANDUM FOR COMMANDER, UNITED STATES PACIFIC COMMAND

     SUBJECT: Notice of Concern – Military Housing Inspections – Asia
              (Project No. D2013- DTOTAD-0003)

             This Notice of Concern is to inform you that the Department of Defense, Office of
     Inspector General (OIG), has identified issues that require your immediate attention. The inspection
     of military housing at U.S. facilities in Japan was conducted from October 28, 2013, to November
     22, 2013, at Kadena Air Base (AB), Camp Lester, Camp Foster, Marine Corps Air Station (MCAS)
     Futenma, Camp Kinser, Camp Courtney, Camp McTureous, Camp Hansen, Torii Station, and
     Camp Schwab. We identified findings in fire protection, electrical systems, structures, and
     environmental health. Copies of all findings were provided to the respective base commander after
     the completion of each base inspection.

             Although the DoD OIG views all findings as significant to the health and safety of the
     warfighter and their families, the 71 findings referred to below are critical and require immediate
     corrective action. The findings will be provided to all the recipients of this Notice of Concern. We
     uploaded the findings to the Aviation and Missile Research Development and Engineering Center
     (AMRDEC) Safe Access File Exchange website. You will receive an automated AMRDEC
     delivery notice e-mail with instructions detailing the process for downloading the complete findings
     for review and comment.

                                                 Kadena AB
        •   Buildings 2442, 2443, 2385, 2647, 2660, 2662, 2791, 2793, 8208, 2265, 2267, 2269, 2378,
            2794, 2797, 6816, 9926, 9925, and 2794 - No smoke alarms in sleeping areas increases the
            risk of injury or death (Findings KAD-FP-131028-001, -002, -003, -004, -005, -006, -007, -
            008, -009, 010, -011, -012, -013, -014, -015, -016, -017, -018, -019, and -020).
        •   Building 2791 - Improper electrical power service drops increase the risk of shock and/or
            electrocution (Finding KAD-EL-131028-056).
        •   Buildings 629 and 613 - Broken light fixtures in shower/bath areas increase the risk of shock
            and/or electrocution (Findings KAD-EL-131028-061 and -062).
        •   Buildings 2442 and 2443 - Very significant mold issues increases the risk of tenant illness
            (Finding KAD-EN-131028-009).

                                                Camp Lester
        •   Buildings 6101, 6193, 6105, 6107, 6191, 6192, and 6193 - No smoke alarms in sleeping
            areas increases the risk of injury or death (Findings LES-FP-131031-001, -002, -003, -004, -
            005, -006, and -018).



                                           For Official Use Only



                                                                                                            DODIG-2014-121 │ 55
Appendixes



                 DoD OIG NOC 2, December 19, 2013 (cont’d)


                                                         For Official Use Only

                                                               Camp Foster
                      •   Buildings 470, 472, 4138, 5698, 5700, and 5703 - No smoke alarms in sleeping areas
                          increases the risk of injury or death (Findings FOS-FP-131104-043, -044, -045, -046, -047,
                          and -048).
                      •   Buildings 4093 and 4090 - Improper electrical power service drops increase the risk of
                          shock and/or electrocution (Findings FOS-EL-131104-039 and -040).
                      •   Building 470 - An ungrounded cold water circulating pump increases the risk of shock
                          and/or electrocution (Finding FOS-EL-131104-060).
                      •   Buildings 473 and 5703 - Broken light fixtures in shower/bath areas increase the risk of
                          shock and/or electrocution (Findings FOS-EL-131104-044 and -046).
                      •   Buildings 5698 and 5700 - Very significant mold issues increases the risk of tenant illness
                          (Findings FOS-EN-131104-009 and -010).

                                                             MCAS Futenma
                      •   Building 219 - Structural issues that expose building occupants to the risk of falling concrete
                          and severe injury (Finding FUT-EN-131107-003).
                      •   Building 431 - Very significant mold issues increases the risk of tenant illness (Finding
                          FUT-EN-131107-002).

                                                              Camp Kinser
                      •   Buildings 1407, 1411, 1418, 1420, 1423, 846, 858, and 1088 - No smoke alarms in sleeping
                          areas increases the risk of injury or death (Findings KIN-FP-131108-001, -002, -003, -004, -
                          005, -033, -034, and -035).
                      •   Building 1210 - Broken light fixtures in shower/bath areas increase the risk of shock and/or
                          electrocution (Finding KIN-EL-131108-013).
                      •   Building 1407 - An ungrounded garbage disposal increases the risk of shock and/or
                          electrocution (Finding KIN-EL-131108-022).

                                                             Camp Courtney
                      •   Building 4300 - Exterior stair railing is damaged, creating fall hazard (Finding COU-FP-
                          131112-015).

                                                            Camp McTureous
                      •   Buildings 5105, 5106, and 5107 - No smoke alarms in sleeping areas increasing the risk of
                          injury or death (Findings MCT-FP-131112-001, -002, and -003).

                                                              Camp Hansen
                      •   Building 2655, 2820, and 2441 - No smoke alarms in sleeping areas increases the risk of
                          injury or death (Findings HAN-FP-131114-019, -020, and -053).
                                                                    2
                                                         For Official Use Only




56 │ DODIG-2014-121
                                                                                                               Appendixes



DoD OIG NOC 2, December 19, 2013 (cont’d)


                                         For Official Use Only

    •   Buildings 2655 and 2820 - Improper grounding and reverse polarity increase the risk of fire,
        shock, or electrocution (Findings HAN-EL-131114-005 and -006).
    •   Buildings 2655 and 2441 - Broken light fixtures in shower/bath areas increase the risk of
        electrocution (Findings HAN-EL-131114-009 and -040).
    •   Building 2495 - Exposed fuel-soaked electrical wire insulation could start a fire due to the
        boiler fuel supply. (Finding HAN-EL-131114-029).

                                             Camp Schwab
    •   Building 3409 - No smoke alarms in sleeping areas increases the risk of injury or death
        (Findings SCH-FP-131119-007).
    •   Building 3409 - Unreliable smoke detectors are causing false alarms, rendering them
        ineffective as a warning device and increasing the risk of injury or death (Finding SCH-FP-
        131119-019).
    •   Building 3425 - Improper dead-front grounding on the panel increases the risk of arc flash,
        shock, or electrocution (Finding SCH-EL-131119-010).

         Also of concern are systematic electrical grounding and bonding issues at all bases. These
 include a lack of Ground Fault Circuit Interrupters and a lack of bonding between ground and
 neutral bars at the main electrical panels. Additionally, the “Lock-out Tag-out” process lacks
 discipline and documentation and therefore, it is ineffective in providing traceability for electrical
 changes and/or repairs. These issues will be addressed in our report.

         In accordance with requirements of DoD Directive 7650.3, please provide your comments
 and proposed corrective actions by January 31, 2014. We will include copies of the comments in
 the report. If possible, send a portable document format (.pdf) file containing your comments to
 Mr. James Howell at james.howell@dodig.mil.

        We appreciate the courtesies and support extended to the DoD OIG staff. Please direct
 questions to Mr. James Howell at (703) 604-9096 (DSN 312-499-9096).




                                                 Randolph R. Stone
                                                 Deputy Inspector General
                                                  Policy and Oversight

 cc:
 Under Secretary of Defense for Acquisition, Technology and Logistics
 Assistant Secretary of the Air Force (Financial Management and Comptroller)
 Commander, United States Forces Japan
 Naval Inspector General
 Auditor General, Department of the Army
                                                   3
                                        For Official Use Only




                                                                                                          DODIG-2014-121 │ 57
Appendixes



                 NOC 3: MCAS Iwakuni (March 26, 2014)
                 DoD OIG NOC 3, March 26, 2014

                                                          INSPECTOR GENERAL
                                                           DEPARTMENT OF DEFENSE
                                                           4800 MARK CENTER DRIVE
                                                        ALEXANDRIA, VIRGINIA 22350-1500




                                                                                                 March 26, 2014


                      MEMORANDUM FOR COMMANDER, UNITED STATES FORCES JAPAN

                      SUBJECT: Notice of Concern – Military Housing Inspections – Asia
                               (Project No. D2013- DTOTAD-0003)

                              This Notice of Concern is to inform you that the Department of Defense, Office of the
                      Inspector General (OIG), has identified issues that require your immediate attention. The
                      inspection of military housing at U.S. facilities in Japan was conducted from March 3 to 7, 2014,
                      at Marine Corps Air Station (MCAS) Iwakuni. We identified findings in fire protection,
                      electrical systems, structures, and environmental health. Copies of all findings were provided to
                      the base commander at the conclusion of the inspection. At the conclusion of our inspection in
                      Japan, a report will be issued to address all findings for all the bases inspected.

                              Although the DoD OIG views all findings as significant to the health and safety of the
                      warfighter and their families, the following 28 findings are critical and require immediate
                      corrective action. The findings will be provided to all recipients of this Notice of Concern via
                      uploads to the Aviation and Missile Development and Engineering Center (AMRDEC) Safe
                      Access File Exchange website. You will receive an automated AMRDEC delivery notice e-mail
                      with instructions detailing the process for downloading the complete findings for review and
                      comment.

                                                      MCAS Iwakuni – 28 Findings

                                                                 Electirical
                         •   Buildings 937, 1264, 1263, and 318 - The main bonding jumper between neutral and
                             ground bars is missing and not bonded at the main electrical panel or the switch gear at
                             the main transformer, increasing the risk of fire, equipment damage, or possible
                             electrocution (Findings IWA-EL-140303-007, -015, -016, and -029).

                         •   Buildings 960, and 961 - The main bonding conductor is improperly sized at the first
                             disconnecting source, increasing the risk of fire, equipment damage, or possible
                             electrocution (Findings IWA-EL-140303-010, and -011).

                         •   Building 313 - A severed ground conductor is present near the mechanical/electrical
                             room, thereby increasing the risk of fire, equipment damage, and/or electrocution
                             (Finding IWA-EL-140303-024).




                                                           For Official Use Only




58 │ DODIG-2014-121
                                                                                                              Appendixes



DoD OIG NOC 3, March 26, 2014 (cont’d)

                                        For Official Use Only

                                           Fire Protection
     •   Buildings 1264, 942, 657, and 960 - No smoke alarms in sleeping areas. Increased risk of
         injury or death (Findings IWA-FP-140303-019, -034, -037, and -043).

     •   Building 955 - Shelving is blocking the fire sprinklers in the tenant storage areas, thereby
         increasing risk of fire growing unchecked, threatening loss of life and property (Finding
         IWA-FP-140303-024).

     •   Buildings 955, 1368, and 313 - Exit stair doors and frames have no evidence indicating
         that they are fire rated/fire-resistance, increasing the risk of rapid spreading smoke and
         flames throughout the building, resulting loss of life and property (Findings IWA-FP-
         140303-032, -036, -057, and -063).

     •   Buildings 314, and 313 - Stair doors missing closure mechanisms allowing rapid spread
         of fire and smoke vertically throughout the building and possibly rendering the exit stair
         unusable. Increased risk of loss of life and property (Finding IWA-FP-140303-069, and -
         082).

     •   Buildings 313, 314, 1368, and 1388 - Laundry rooms were not properly separated from
         the rest of the floor by fire-rated construction thereby increasing the risk of a fire in the
         laundry room spreading rapidly throughout the building. Increase risk of loss of life and
         property (Findings IWA-FP-140303-070, -099, -100, and -101).

     •   Building 906 - The fire sprinklers in the community room were blocked by a jungle gym.
         Obstructed, incomplete sprinkler coverage can permit fires to grow unchecked, resulting
         in increased risk of loss of life and property (Finding IWA-FP-140303-059).

     •   Building 657 - Non-position indicating valves are installed in sprinkler system supply
         pipes making it difficult to determine if the valve is opened or closed, increasing risk of
         loss of life and property (Finding IWA-FP-140303-080).

     •   Buildings 657, 314, and 318 - The sprinkler system and standpipe riser control valves not
         monitored by the building fire alarm system. Risk of valves being inadvertantly closed
         and rendering the sprinkler system inoperable, leading to increased risk of loss of life and
         property (Findings IWA-FP-140303-086, -093, and -094).

     •   Building 1190 - The fire pump controller electrical polarity indicates a phase reversal
         fault, rendering the fire pump (and by extension the sprinkler system) inoperable,
         increasing the risk of loss of life and property (Finding IWA-FP-140303-103).

       In accordance with requirements of DoD Directive 7650.3, please provide your
  comments and proposed corrective actions by April 28, 2014. We will include copies of the
  comments in the report. If possible, send a portable document format (.pdf) file containing your
  comments to Mr. James Howell at james.howell@dodig.mil.

                                                  2
                                        For Official Use Only




                                                                                                         DODIG-2014-121 │ 59
Appendixes



                 DoD OIG NOC 3, March 26, 2014 (cont’d)

                                                          For Official Use Only

                             We appreciate the courtesies and support extended to the DoD OIG staff. Please direct
                      questions to Mr. James Howell at (703) 604-9096 (DSN 312-499-9096).




                                                                     Randolph R. Stone
                                                                     Deputy Inspector General
                                                                     Policy and Oversight


                      cc:
                      Under Secretary of Defense for Acquisition, Technology and Logistics
                      Assistant Secretary of the Air Force (Financial Management and Comptroller)
                      Commander, United States Pacific Command
                      Naval Inspector General
                      Auditor General, Department of the Army
                      Commander, MCAS Iwakuni




                                                                    3
                                                          For Official Use Only




60 │ DODIG-2014-121
                                                                                      Appendixes




Appendix G
Deficiencies
Recipients of this report will receive an automated Aviation and Missile Research,
Development, and Engineering Center (AMRDEC) file exchange delivery notice
e-mail with instructions detailing the process for downloading all of the
deficiencies identified during this inspection.




                                                                                 DODIG-2014-121 │ 61
Management Comments




                 Management Comments
                 Department of the Army Response




62 │ DODIG-2014-121
                                                                                               Management Comments



Department of the Navy Response

                 DoD IG Draft Report: “Military Housing Inspections - Japan”
                              (Project No. D2013-D0TAD-0003)
                            Department of the Navy Comments


  DoD IG Recommendation A. We recommend that the respective Military Departments, as
  applicable:

         a. Conduct an effective root cause analysis and corrective action for all 1,051 deficiencies
         in this report.
         b. Ensure that these deficiencies do not exist in other housing units.
         c. Ensure the inspection, maintenance, and repair program is in compliance with
         applicable codes and standards for fire protection systems, electrical systems, and
         environmental health and safety.

     Department of the Navy Response: Concur. Actions are either complete or underway
     to address the deficiencies noted in the report and ensure that those deficiencies do not
     exist in other housing units.

     Commander, Navy Region Japan (CNRJ) has conducted an effective root cause analysis
     and corrective actions for 134 deficiencies (60 for NAF Atsugi and 74 for CFA Yokosuka)
     noted on the report. To date, there are 27 pending corrective actions with projected
     completion dates and 5 units are unoccupied and scheduled for demolition in fiscal year
     2015. CNRJ has ensured that these deficiencies do not exist in other region housing units.

     The Marine Corps has initiated inspections to validate discrepancies and identify
     additional maintenance and repair work. Completion of facility service tickets labeled
     DoDIG discrepancy is currently 70%.

  DoD IG Recommendation B. We recommend that the respective Military Departments, as
  applicable, ensure that sufficient, qualified resources are available and assigned to inspect and
  verify that all housing buildings and units are in compliance with requirements for fire protection
  systems.

     Department of the Navy Response: Concur.

     The Navy and Marine Corps will ensure that sufficient, qualified resources are available
     and assigned to inspect and verify that all housing buildings and units are in compliance
     with requirements for fire protection systems.

     With respect to fire sprinkler systems, these systems will be installed as required in
     conjunction with major facility projects in accordance with governing instructions (e.g.,
     Unified Facilities Criteria).

  DoD IG Recommendation C. We recommend that the respective Military Departments, as
  applicable, ensure that sufficient, qualified resources are available and assigned to inspect and




                                                                                                        DODIG-2014-121│ 63
Management Comments



                 Department of the Navy Response (cont’d)

                      verify that all housing buildings and units are in compliance with requirements for electrical
                      systems.

                         Department of the Navy Response: Concur.

                         The Navy and Marine Corps will ensure that sufficient, qualified resources are available
                         and assigned to inspect and verify that all housing buildings and units are in compliance
                         with requirements for electrical systems.

                      DoD IG Recommendation D.1. We recommend that the respective Military Departments, as
                      applicable, ensure that sufficient, qualified resources are available and assigned to inspect and
                      verify that all housing buildings and units are in compliance with environmental health and
                      safety requirements.

                         Department of the Navy Response: Concur.

                         The Navy and Marine Corps will ensure that sufficient, qualified resources are available
                         and assigned to inspect and verify that all housing buildings and units are in compliance
                         with environmental health and safety requirements.

                      DoD IG Recommendation E. We recommend that the respective Military Departments, as
                      applicable, ensure that housing management systems and processes are fully implemented and
                      followed for all installations. This includes improving processes for tracking service calls and
                      work orders through completion, ensuring that inspections and maintenance are conducted as
                      required, and analyzing historical work order information for trends and lessons learned to
                      improve housing management programs.

                         Department of the Navy Response: Concur.

                         The Navy and Marine Corps will ensure that housing management systems and processes
                         are fully implemented and followed for all installations. This includes improving processes
                         for tracking service calls and work orders through completion, ensuring that inspections
                         and maintenance are conducted as required, and analyzing historical work order
                         information for trends and lessons learned to improve housing management programs.




                                                                       2




64 │ DODIG-2014-121
                                       Management Comments




Department of the Air Force Response




                                             DODIG-2014-121│ 65
Management Comments



                 Office of the Under Secretary of Defense for
                 Acquisition, Technology, and Logistics Response




66 │ DODIG-2014-121
                                         Management Comments



United States Pacific Command Response




                                               DODIG-2014-121│ 67
Management Comments



                 United States Forces Japan Response




68 │ DODIG-2014-121
                                                                 Acronyms and Abbreviations




Acronyms and Abbreviations
      ACM    Asbestos Containing Material
      ADM    Add-Drop Multiplexer
  AFMC DET   Air Force Materiel Command Detachment
       AR    Army Regulation
      ASCE   American Society of Civil Engineers
       BEE   Bioenvironmental Engineering Office
       BO    Base Order
      BNC    Berkeley Nucleonics Corp.
      CEG    Civil Engineering Group
       CFA   Commander Fleet Activities
      CNFJ   Commander Naval Forces Japan
   DA PAM    Department of the Army Pamphlet
      DOD    Department of Defense
     DODD    Department of Defense Directive
     DODG    Department of Defense Guidance
     DODI    Department of Defense Instruction
    DODM     Department of Defense Manual
   DoD OIG   Department of Defense Office of Inspector General
      DPW    Department of Public Works
       EPA   Environmental Protection Agency
       FGS   Final Governing Standards
      GFCI   Ground Fault Circuit Interrupter
      HNC    Host Nation Construction
     HVAC    Heating, Ventilation, and Air Conditioning
      JEGS   Japanese Environmental Governing Standards
    IWIMS    Interim Work Information Management System
       ITG   Interim Technical Guidance
     MCAS    Marine Corps Air Station
    MCBJO    Marine Corps Base Japan Order
      MCB    Marine Corps Base
      MCO    Marine Corps Order
      mSv    Millisieverts
    MREM     Millirem




                                                                            DODIG-2014-121│ 69
Acronyms and Abbreviations




                 Acronyms and Abbreviations (cont’d)
                             NAF    Naval Air Facility
                            NFPA    National Fire Protection Association
                          NAVFAC    Naval Facilities Engineering Command
                        NAVRAMP     Navy Radon Assessment and Mitigation Program
                             NEC    National Electrical Code
                           NORM     Natural Occurring Radioactive Material
                             NOC    Notice of Concerns
                             OIG    Office of Inspector General
                            O&M     Operations and Maintenance
                       OPNAVINST    Chief of Naval Operations Instructions
                      OUDS (AT&L)   Office of the Under Secretary of Defense for Acquisition, Technology, and Logistics
                          PACOM     U.S Pacific Command
                            pCi/L   Picocuries Per Liter
                          RADIAC    Radiation Detection, Indication And Computation
                             REM    Roentgen Equivalent in Man
                             SAIC   Science Applications International Corporation
                            SASC    Senate Armed Services Committee
                             TAD    Technical Assessment Directorate
                       USACHPPM     United States Army Center for Health Promotion & Preventive Medicine
                          USADEJ    U.S. Army Engineering District, Japan
                            USAG    United States Army Garrison
                          USAG-J    United States Army Garrison Japan
                           USARJ    United States Army Japan
                             USFJ   United States Forces Japan
                           USMC     United States Marine Corps
                            USNH    United States Naval Hospital
                             µSv    Microseiver




70 │ DODIG-2014-121
            Whistleblower Protection
           U.S. Department of Defense
The Whistleblower Protection Enhancement Act of 2012 requires
the Inspector General to designate a Whistleblower Protection
Ombudsman to educate agency employees about prohibitions
on retaliation, and rights and remedies against retaliation for
protected disclosures. The designated ombudsman is the DoD Hotline
Director. For more information on your rights and remedies against
     retaliation, visit www.dodig.mil/programs/whistleblower.




   For more information about DoD IG
  reports or activities, please contact us:
                      Congressional Liaison
               congressional@dodig.mil; 703.604.8324

                             Media Contact
                public.affairs@dodig.mil; 703.604.8324

                        Monthly Update
                dodigconnect-request@listserve.com

                       Reports Mailing List
                     dodig_report@listserve.com

                               Twitter
                         twitter.com/DoD_IG

                           DoD Hotline
                          dodig.mil/hotline
D E PA R T M E N T O F D E F E N S E │ I N S P E C T O R G E N E R A L
                     4800 Mark Center Drive
                   Alexandria, VA 22350-1500
                         www.dodig.mil
                 Defense Hotline 1.800.424.9098
